                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                      Air Quality


                     Enhanced EPA Oversight
                     Needed to Address Risks
                     From Declining Clean Air Act
                     Title V Revenues
                     Report No. 15-P-0006                   October 20, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with climate change. For details on our other reports on climate
 change, go to http://www.epa.gov/oig/climatechange.

Report Contributors:                                 Rick Beusse
                                                     John Bishop
                                                     Dan Howard
                                                     Andrew Lavenburg
                                                     Geoff Pierce

Abbreviations
CAA                        Clean Air Act
CFR                        Code of Federal Regulations
CPI                        Consumer Price Index
EPA                        U.S. Environmental Protection Agency
Florida DEP                Florida Department of Environmental Protection
Illinois EPA               Illinois Environmental Protection Agency
Indiana DEM                Indiana Department of Environmental Management
Louisiana DEQ              Louisiana Department of Environmental Quality
NACAA                      National Association of Clean Air Agencies
New York State DEC         New York State Department of Environmental Conservation
NOD                        Notice of Deficiency
OAQPS                      Office of Air Quality Planning and Standards
OAR                        Office of Air and Radiation
Ohio EPA                   Ohio Environmental Protection Agency
OIG                        Office of Inspector General
Pennsylvania DEP           Pennsylvania Department of Environmental Protection
South Coast AQMD           South Coast Air Quality Management District
Texas CEQ                  Texas Commission on Environmental Quality

Cover photo: A smokestack at a coal-fired power plant. (EPA photo)


 Are you aware of fraud, waste or abuse in an           EPA Office of Inspector General
 EPA program?                                           1200 Pennsylvania Avenue, NW (2410T)
                                                        Washington, DC 20460
 EPA Inspector General Hotline                          (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                   www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                    Subscribe to our Email Updates
                                                        Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.      Send us your Project Suggestions
                                                                                                             15-P-0006
                        U.S. Environmental Protection Agency                                           October 20, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review             Enhanced EPA Oversight Needed to Address Risks
We conducted this evaluation       From Declining Clean Air Act Title V Revenues
to determine whether the
U.S. Environmental Protection       What We Found
Agency’s (EPA’s) oversight of
state and local Clean Air Act      We found significant weaknesses in the EPA’s              Weaknesses in the
Title V programs’ fee revenues     oversight of state and local Title V programs’ fee        EPA’s oversight of
is effective in identifying and    revenue practices. While some EPA regions had             Title V revenues and
obtaining corrective actions for   worked to resolve issues, we found annual Title V         expenditures jeopardize
issues related to collecting,      program expenses often exceeded Title V                   program implementation
retaining and allocating fee       revenues, and both had generally been declining           and, in turn, compliance
revenues. Title V was expected                                                               with air regulations for
                                   over the 5-year period we reviewed (2008–2012).
to, among other things, improve                                                              many of the nation’s
                                   For example, our survey of nine of the nation’s           largest sources of air
compliance and enforcement of      largest permitting authorities showed that annual         pollution.
states’ air pollution programs.    Title V revenues were not sufficient to cover annual
Title V permit fees are used to    Title V expenses 62 percent of the time from 2008 to 2012. Specifically, we noted
implement and enforce the          a $69 million shortfall out of $672 million in expenses incurred by these
permitting program, including      authorities from 2008–2012. Also, four of the nine permitting authorities used or
acting on new permit               said they could use non-Title V revenue to fund their Title V programs, a practice
applications and revisions or      not allowed by the Code of Federal Regulations (CFR) under the 40 CFR
renewals of existing permits;      Part 70. In some instances the EPA was aware of these issues, but corrective
monitoring facility compliance;    actions had either not been taken or were insufficient. EPA’s oversight has been
taking enforcement actions for     hampered by:
noncompliance; performing
monitoring, modeling and                 Lack of a national strategy for conducting oversight of Title V fees.
analysis; tracking facility              Outdated guidance.
emissions; and preparing                 Lack of financial or accounting expertise among EPA program staff.
emissions inventories.                   Reluctance by some regions to pursue formal corrective actions.
This report addresses the
                                   The agency’s weaknesses in identifying and obtaining corrective actions for
following EPA goals or
                                   Title V revenue sufficiency and accounting practices, coupled with declining
cross-agency strategies:
                                   resources for some permitting authorities, jeopardizes state and local Title V
  Addressing climate change       program implementation. These weaknesses also increase the risk of permitting
   and improving air quality.      authorities misusing funds and operating in violation of the requirements of
  Protecting human health         40 CFR Part 70. Periodic monitoring of facility compliance, one aspect of Title V
   and the environment by          used by the EPA and authorized Title V programs to protect human health and
   enforcing laws and              the environment, could be adversely impacted by insufficient funding.
   assuring compliance.
  Launching a new era of           Recommendations and Planned Agency Corrective Actions
   state, tribal, local and
   international partnerships.     We recommend that the EPA assess, update and re-issue its 1993 Title V fee
                                   guidance as appropriate; establish a fee oversight strategy to ensure consistent
Send all inquiries to our public   and timely actions to identify and address violations of 40 CFR Part 70;
affairs office at (202) 566-2391   emphasize and require periodic reviews of Title V fee revenue and accounting
or visit www.epa.gov/oig.          practices in Title V program evaluations; address shortfalls in staff expertise as
The full report is at:             regions update their workforce plans; and pursue corrective actions, as
www.epa.gov/oig/reports/2014/      necessary. The agency agreed with all recommendations and provided corrective
20141020-15-P-0006.pdf             action plans that meet the intent of the recommendations.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460

                                                                                    THE INSPECTOR GENERAL




                                            October 20, 2014

MEMORANDUM

SUBJECT:       Enhanced EPA Oversight Needed to Address Risks
               From Declining Clean Air Act Title V Revenues
               Report No. 15-P-0006

FROM:          Arthur A. Elkins Jr.

TO:            Janet McCabe, Acting Assistant Administrator
               Office of Air and Radiation

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA offices having primary responsibility over the issues evaluated in this report are the Office of
Air and Radiation’s Office of Air Quality Planning and Standards and the applicable air offices in the
10 EPA regions.

Action Required

The agency agreed with all eight recommendations and provided acceptable planned corrective actions
and completion dates that meet the intent of these recommendations. These recommendations are
resolved; therefore, no further response is needed for these recommendations. All recommendations are
considered open, with agreed to corrective actions pending. Please update the EPA’s Management Audit
Tracking System as you complete the planned corrective actions. Please notify my staff if there is a
significant change in the agreed-to corrective actions. Should you choose to provide a response to this
final report, we will post your response on the OIG’s public website, along with our memorandum
commenting on your response. You should provide your response as an Adobe PDF file that complies
with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended.

We will post this report to our website at http://www.epa.gov/oig.
Enhanced EPA Oversight Needed to Address Risks                                                                          15-P-0006
From Declining Clean Air Act Title V Revenues


                                   Table of Contents
 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Responsible Offices ...................................................................................         4
                 Scope and Methodology ............................................................................              5

   2   EPA Needs to Improve Oversight of Title V State and Local
       Program Fee Revenue Practices ........................................................................                    9

                 EPA Has Placed Less Emphasis on Oversight of Title V Revenues,
                     Expenses and Accounting in Recent Years ........................................                            9
                 EPA Has Not Consistently Identified and Obtained
                    Corrective Actions for Title V Revenue and Accounting Issues ...........                                     11
                 EPA’s Oversight Is Hampered by Lack of National Strategy
                    and Challenges in Enforcing Part 70 Requirements ............................                                17
                 Oversight Weaknesses and Downward Trends in Title V
                    Revenues Jeopardize Program Implementation ..................................                                21
                 Conclusions ...............................................................................................     23
                 Recommendations .....................................................................................           23
                 Agency Comments and OIG Evaluation .....................................................                        24

   Status of Recommendations and Potential Monetary Benefits .............................                                       26



 Appendices
   A     Examples of EPA Oversight Actions to Address
         Title V Accounting or Fee Adequacy Issues ...................................................                           27

   B     Three Permitting Authorities Where Annual Title V Expenses
         Exceeded Revenues Each Year, 2008–2012 ...................................................                              28

   C     Four Permitting Authorities’ Use of Non-Title V Revenues
         to Support Title V Programs, 2008–2012.........................................................                         32

   D     Revenue and Expense Trends Between 2008 and 2012 at
         Permitting Authorities Sampled ......................................................................                   36

   E     Agency Response to Draft Report...................................................................                      39

   F     Distribution .......................................................................................................    44
                                   Chapter 1
                                    Introduction
Purpose
            We conducted this evaluation to determine whether the U.S. Environmental
            Protection Agency’s (EPA’s) oversight of state and local Clean Air Act (CAA)
            Title V programs’ fee revenue practices is effective in identifying and obtaining
            corrective actions for issues related to collecting, retaining and allocating fee
            revenues in accordance with the Code of Federal Regulations (CFR) in 40 CFR
            Part 70.

Background
            Purpose of CAA Title V Operating Permits

            In 1990, Congress enacted permitting requirements designed to reduce violations
            and improve enforcement of air pollution laws for the largest sources of air
            pollution. The CAA operating permit program covers the most significant sources
            of air pollution in the United States. The more complex sources—such as large
            petroleum refineries and chemical production plants—can have hundreds or even
            thousands of emission points. A properly implemented Title V program provides
            assurance of major source compliance, and also reduces air pollution emissions,
            increases regulatory certainty and improves air quality.

            Title V permits contain all of the air quality   Title V permits, also referred to as
                                                             operating permits, are legally
            requirements for an individual major source.     enforceable documents that
            Title V does not generally impose new air        permitting authorities issue to major
            quality control requirements. Instead, it        stationary sources—and a limited
                                                             number of smaller sources—of air
            requires permits to contain monitoring,          pollution that allow these sources to
            reporting and recordkeeping provisions to        operate. Most Title V permits are
            ensure that affected sources, federal and        issued by 117 state, local and
                                                             territorial permitting authorities that
            state regulators, industry, and the public       have been approved by the EPA.
            know the air quality requirements the source
            must meet to comply with the CAA. The regulations that establish minimum
            Title V program standards for permitting authorities are in 40 CFR Part 70.

            According to the timeline established by the CAA Amendments in 1990, all initial
            Title V permits should have been issued by 1997. Permits were to be renewed
            every 5 years thereafter. As of June 30, 2012, there were more than 15,000 Title V
            permits in the United States.




15-P-0006                                                                                          1
                  Title V Fees Sufficiency Requirements
                  Each permitting authority with an EPA-approved Title V program is required by
                  the CAA to establish and collect fees from owners of major stationary sources
                  sufficient to fund all reasonable Title V program costs. Permitting authorities are
                  required to use those fees solely for permit program costs. As required under
                  Title V, in 1992 the EPA issued rules and regulations in 40 CFR Part 70 for
                  implementing state1 air quality permitting systems. In the preamble to the 40 CFR
                  Part 70 final regulation, the EPA described the requirement to establish an
                  adequate permit fee schedule as a key provision of Title V. In regard to Title V
                  fees, 40 CFR Part 70 requires that:2

                           (a) Fee Requirement. The state program shall require that the owners
                           or operators of Part 70 sources pay annual fees, or the equivalent
                           over some other period, sufficient to cover the permit program costs.
                           The state program shall also ensure that any fee required by this
                           section will be used solely for permit program costs.
                           (b) Fee schedule adequacy. The state program shall establish a fee
                           schedule that results in the collection and retention of revenues
                           sufficient to cover the permit program costs.

                  Generally, according to Part 70, permit program costs include:

                          Preparing regulations and guidance for implementing and enforcing the
                           permit program.
                          Reviewing and acting on permit applications, revisions or renewals.
                          Permit development.
                          Compliance and enforcement (to the extent that these activities occur prior
                           to the filing of an administrative or judicial complaint or order).
                          Emissions and ambient monitoring, modeling and analysis.
                          Preparing inventories and tracking emissions.

                  The EPA’s Part 70 regulations provide flexibility in the type of fees that
                  permitting authorities collect as Title V revenues. A permitting authority’s fee
                  schedule may include emissions fees, application fees, service-based fees, other
                  types of fees or any combination thereof. However, according to the EPA’s
                  preamble to Part 70, the true measure of the adequacy of a program’s fee schedule
                  is whether the fee schedule results in the collection of adequate revenues to
                  support all of their permit program costs.

                  While the basic measure of fee schedule adequacy is collection of enough fees to
                  cover all permit program costs, the CAA and Part 70 allowed for permitting
1
  Under 40 CFR Part 70, the permitting authority can be a state air pollution control agency, local agency, other state
agency, or other agency authorized by the EPA Administrator to carry out a permit program under Part 70. It can
also be the EPA Administrator in the case of an EPA-implemented program.
2
  40 CFR 70.9 fee determination and certification.



15-P-0006                                                                                                             2
                authorities to adopt a presumptive minimum fee schedule. In approving initial fee
                structures, EPA considered program funding to be adequate if fees were collected
                at or above the presumptive minimum rate per ton (initially $25 per ton of
                regulated pollutants, adjusted according to the Consumer Price Index (CPI)).
                However, Part 70 states that adequacy of the presumptive minimum fee rate is
                rebuttable. According to Part 70, if the EPA determines—either through
                comments received or of its own initiative—that there are “serious questions”3
                regarding whether the fee schedule is sufficient to cover all permit program costs,
                the EPA shall require the permitting authority to submit a detailed accounting that
                its fee structure meets the requirements of Part 70.

                The EPA stated that the presumption of fee adequacy based upon adoption of the
                presumptive minimum fee would be most useful during the initial round of
                program approvals. In its preamble to Part 70, EPA indicated that it expected the
                utility of the presumptive minimum fee would diminish as a means of determining
                fee schedule adequacy as permit programs developed and permitting authorities—
                as well as the EPA—gained a greater expertise in estimating program financial
                needs and fee revenues. The presumptive minimum fee rate ($/ton) for the
                12-month period September 1, 2013, through August 31, 2014, is $47.52.

                According to the EPA’s 1993 Operating Permits Program fee schedule guidance:4

                        Only funds collected from Part 70 sources may be used to fund a state’s
                         Title V permits program. Legislative appropriations, other funding
                         mechanisms such as vehicle license fees, and Section 105 funds cannot be
                         used to fund these activities.
                        The fee revenue is to cover the reasonable direct and indirect costs of the
                         permits program. This revenue may not be used for any purpose except to
                         fund the permits program. However, Title V does not limit state discretion
                         to collect fees pursuant to independent state authority beyond the
                         minimum amount required by Title V.

                The EPA’s 1993 fee schedule guidance also allowed permitting authorities
                significant flexibility in establishing a fee structure as long as revenues are sufficient
                to cover all reasonable direct and indirect costs of the permit program. The agency
                also noted in its guidance document that changes in fee structure would be
                “inevitable.” The EPA noted that changes may be required in response to periodic
                audits or from a revised number of Part 70 stationary sources of air pollution.




3
 40 CFR 70.9 (b)(5)(ii).
4
 Reissuance of Guidance on Agency Review of State Fee Schedules for Operating Permits Programs Under Title V.
August 4, 1993, memorandum from the Director, EPA Office of Air Quality Planning and Standards to EPA Air
Division Directors, Regions 1–10.




15-P-0006                                                                                                   3
                 Authority for EPA Oversight of Fees and Revenue
                 CAA Title V authorizes the EPA to monitor whether a state is adequately
                 administering and enforcing its EPA-approved permitting program. 5
                 Pursuant to Section 7661a(i)(1):
                        [whenever] the Administrator makes a determination that a
                        permitting authority is not adequately administering and enforcing
                        a program, or portion thereof, ... the Administrator shall provide
                        notice to the State.

                 Legal obligations are only triggered once notice is given to the state (i.e., once the
                 EPA initiates its formal enforcement authority). Whenever the EPA Administrator
                 makes a determination that a permitting authority is not adequately administering
                 or enforcing a Part 70 program (or any portion thereof), the Administrator is
                 required to notify the permitting authority of the determination and the reasons.
                 Upon issuance of a Notice of Deficiency (NOD), if the state does not correct the
                 deficiencies within 18 months, the EPA is required to take over and administer the
                 Title V program.6 Among the reasons that the EPA may consider as inadequate the
                 administration or enforcement of a Part 70 program are a permitting authority’s
                 failure to collect, retain or allocate fee revenues consistent with 40 CFR Part 70.9.7

Responsible Offices
                 Both the EPA’s Office of Air and Radiation (OAR) and the EPA’s regions are
                 responsible for overseeing EPA-approved Title V programs. Specifically:

                 OAR: OAR—through its Office of Air Quality Planning and Standards (OAQPS)—
                 establishes overall policy and performs some Title V fee oversight functions, often in
                 concert with EPA regions. OAQPS’ functions include:
                         Developing national Title V program rulemakings, policy and guidance.
                         Reviewing public petitions asking the EPA to object to state-issued
                          Part 70 Title V permits.
                         Responding to congressional and executive branch requests for information.

                 EPA Regions: EPA regional offices are primarily responsible for overseeing
                 individual Title V permitting authorities. Regional oversight activities include:
                         Review of permitting authority submittals and revisions to permitting
                          authority programs.
                         Periodic review of permitting authority programs.
                         Review and comment on draft permits.
                         Review of monitoring or other reports required by permits.


5
  42 U.S.C. § 7661a(i).
6
  42 U.S.C. § 7661a(i)(4); 40 CFR 70.10(b)(4).
7
  40 CFR 70.10.



15-P-0006                                                                                            4
                         Title V program evaluations and fee audits.
                         Responses to public petitions.
                         Informal communications with permitting authorities (including periodic
                          phone calls and meetings).
                         Making findings of program deficiencies and issuing NODs.

                 In 2003, OAQPS provided guidance to Regional Air Division Directors for
                 conducting program evaluations. The guidance included a questionnaire to use for
                 reviewing permitting authorities. The questionnaire included evaluation questions
                 related to Title V revenue and accounting practices. The 2003 guidance states that
                 it would be acceptable to do both a program evaluation and a fee review at the
                 same time. The guidance also allows for preparation of a common report and
                 provides that if previous fee and overall program reviews indicated no problems it
                 is not necessary to conduct a fee review for a particular program.

                 OAR’s National Program Guidance from 2010 to 2014 included expectations for
                 regions to conduct program evaluations of state operating permit programs.
                 The 2014 guidance contains a commitment that each region conduct one Title V
                 program evaluation annually and complete a report within the fiscal year.

Scope and Methodology
                 We sought to determine whether the EPA’s oversight of state and local Title V
                 programs’ fee revenue practices has been effective in identifying and obtaining
                 corrective actions for issues related to collecting, retaining and allocating fee
                 revenues in accordance with federal regulations. To do so, we obtained and
                 reviewed applicable federal laws, regulations and guidance related to CAA
                 Title V fee adequacy and the EPA’s related oversight responsibilities.8 We also
                 interviewed OAQPS managers and staff to identify additional oversight activities
                 for the Title V programs.

                 We obtained and reviewed EPA regions’ program evaluation reports. We
                 reviewed reports completed by the regions on their state and local agencies’
                 permitting programs since the inception of the Title V program. We analyzed the
                 reports to gain an understanding of how EPA regions have used program
                 evaluations to oversee Title V fee and expenditure implementation and accounting
                 for their permitting authorities. In all, we reviewed 121 program evaluation
                 reports completed by the 10 EPA regions from September 2003 to January 2013.

                 We conducted a survey of all 10 EPA regions to further assess the extent of their
                 oversight activities of Title V program fees and accounting. We also developed
                 and administered an electronic survey to obtain operational, performance,
                 financial (i.e., fee structure, revenues and expenses), and other data directly from

8
  This evaluation focused on EPA oversight of Title V fee revenues and expenses, and did not evaluate all aspects of
the EPA’s oversight of state and local agencies’ Title V programs.




15-P-0006                                                                                                          5
                  nine of the nation’s largest state and local permitting authorities.9 Prior to its use,
                  we provided the draft survey to OAQPS and the six regions that oversee the
                  permitting authorities for their comment and input, and revised the survey based
                  on their comments. The survey was used to collect information on:

                          Permitting authorities’ operations, including size of the permitting
                           authority, number of permits, employment, and 2008–2012 trends in
                           revenues and expenses.
                          How the permitting authorities assess performance, including performance
                           statistics related to inspections and enforcement actions.
                          Communications between the EPA and the permitting authority related to
                           Title V fee accounting and revenue issues and program performance.
                          The adequacy of EPA Title V fee accounting and revenue guidance.
                          Permitting authority activities funded by Title V revenues.
                          The sufficiency of a permitting authority’s current and future Title V
                           funding.
                          The anticipated impact on state and local agencies’ Title V resources of
                           having to issue Title V permits for greenhouse gas emissions.10

                  Our sample covered nine permitting authorities that oversee 45 percent of the
                  nation’s active Title V permits. These nine permitting authorities oversaw 6,727
                  of the 15,104 Title V permits as of June 30, 2012. The nine permitting authorities
                  are overseen by six EPA regions. Table 1 lists the permitting authorities, the EPA
                  region that oversees each authority, and the number of active permits overseen by
                  each authority.




9
  We selected nine of the nation’s largest permitting authorities (by total permits). We limited the sample to no more
than three permitting authorities from any one EPA region. This was to ensure that we did not overemphasize a
particular EPA region, while capturing the larger permitting authorities in the country. The selection was based on
OAQPS data on active Title V permits as of June 30, 2012.
10
   We asked this question prior to the June 23, 2014, United States Supreme Court decision addressing the
application of stationary source permitting requirements to greenhouse gases (Utility Air Regulatory Group v.
Environmental Protection Agency (No. 12-1146)). As a result of the Supreme Court decision, the EPA will no
longer apply or enforce the requirement that a source obtain a Title V permit solely because it emits or has the
potential to emit greenhouse gases above major source thresholds. Therefore, we do not believe the anticipated
impact on state and local Title V programs’ resources will be as significant as had been estimated prior to the
Supreme Court decision.



15-P-0006                                                                                                            6
            Table 1: Active Title V permits for the nine permitting authorities surveyed as of
            June 30, 2012
                                                                                    EPA          Number of
                                 Permitting authority                              region      active permits
             New York State Department of Environmental Conservation                  2              398
             Pennsylvania Department of Environmental Protection                      3              808
             Florida Department of Environmental Protection                           4              435
             Illinois Environmental Protection Agency                                 5              490
             Indiana Department of Environmental Management                           5              611
             Ohio Environmental Protection Agency                                     5              543
             Louisiana Department of Environmental Quality                            6              738
             Texas Commission on Environmental Quality                                6            2,275
             South Coast Air Quality Management District
                                                                                      9             429
             (covers the Los Angeles, California, area)
             Total                                                                                 6,727
            Source: Office of Inspector General (OIG) analysis of EPA Title V permit data, 2012.

            After reviewing and analyzing survey responses, we interviewed representatives
            from each of the nine permitting authorities to clarify any responses that appeared
            incomplete or unclear. We also obtained additional supporting documentation as
            needed to confirm the responses. We conducted follow-up interviews with each of
            the six regions responsible for overseeing the nine permitting authorities to obtain
            their views on the Title V fee information we obtained. We relied on data
            obtained from permitting authorities through our survey and interview processes,
            and did not independently verify all of the data provided to us by the permitting
            authorities. The information we obtained does not constitute a finding of
            deficiency as defined in 40 CFR Part 70.

            We conducted this performance audit from June 2012 to July 2014 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objective. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objective.

            Prior Reports
                    EPA OIG Report No. 2002-P-00008, EPA and State Progress in
                     Issuing Title V Permits, March 29, 2002. The OIG identified key factors,
                     including insufficient resources, that caused delays in issuing Title V
                     permits by selected state and local agencies. The OIG recommended that
                     EPA regions be required to expeditiously conduct fee protocol reviews
                     and ensure that state and local agencies act on review findings.

                    EPA OIG Report No. 2003-P-00005, EPA Region 6 Needs to Improve
                     Oversight of Louisiana’s Environmental Programs, February 3, 2003.
                     The OIG found that Region 6 staff had not followed headquarters’



15-P-0006                                                                                                  7
                1998 guidance for conducting Title V fee audits and were unaware as to
                whether Louisiana employees were properly charging personnel costs.

               EPA OIG Report No. 2005-P-00010: Substantial Changes Needed in
                Implementation and Oversight of Title V Permits If Program Goals Are
                To Be Fully Realized, March 9, 2005. The OIG found that, in 2003, OAR
                shifted emphasis from regional permit reviews to program evaluations of
                state and local agencies’ Title V programs, regions had not completed all
                of the program evaluations for the state and local agencies they oversee,
                and the EPA had issued a NOD in an instance where the state or local
                agency did not collect sufficient Title V fees.

               EPA OIG Report No. 12-P-0113, EPA Must Improve Oversight of State
                Enforcement, December 9, 2011. The OIG found that while the EPA’s
                national goal called for states to inspect 100 percent of Title V major
                sources every 2 years, states inspected an average of 89 percent of these
                facilities in the 2-year period, and only eight states met the EPA’s
                100-percent goal. Also, the OIG found that the EPA set a national goal
                that states enter 100 percent of high-priority violations into EPA data
                systems within 60 days, but states only entered 35 percent of high-priority
                violations in that time frame and only two states met the 100-percent goal.




15-P-0006                                                                                 8
                                  Chapter 2
       EPA Needs to Improve Oversight of Title V
    State and Local Program Fee Revenue Practices
            We found significant weaknesses in the EPA’s oversight of state and local Title V
            programs’ fee revenue practices for identifying and obtaining corrective actions to
            collect, retain and allocate fee revenues in accordance with 40 CFR Part 70.
            While some EPA regions have worked to resolve these issues, annual Title V
            program expenses often exceeded revenues for the permitting authorities
            surveyed. Specifically, annual Title V revenues were not sufficient to cover
            annual Title V expenses 62 percent of the time from 2008 to 2012 for the
            permitting authorities we surveyed. Of the $672 million in expenses incurred over
            a 5-year period by these authorities, we noted a $69 million shortfall in revenues
            raised over that same time period. This shortfall strained Title V account balances,
            and four of the nine authorities used or said they could use non-Title V revenue to
            fund their Title V programs. EPA regions’ proposed corrective actions for some
            instances had either not been taken or were insufficient to correct the
            problems. EPA oversight has been hampered by:

                  Lack of a national strategy for conducting Title V fee oversight.
                  Outdated guidance.
                  Lack of financial or accounting expertise among program staff.
                  Reluctance by some regions to pursue formal corrective actions.

            The EPA’s weaknesses in identifying and obtaining corrective actions for issues
            related to Title V revenue sufficiency and accounting practices, coupled with
            declining resources for some permitting authorities, jeopardize effective state and
            local Title V program implementation. It also increases the risk of permitting
            authorities misusing funds and operating in violation of 40 CFR Part 70.
            Compliance monitoring—one aspect of Title V used by the EPA and authorized
            Title V programs to protect human health and the environment—could be
            adversely impacted by insufficient funding.

EPA Has Placed Less Emphasis on Oversight of Title V Revenues,
Expenses and Accounting in Recent Years
            Since the 1990 CAA Amendments first required Title V operating permits for
            major stationary sources, the EPA has overseen development, approval and
            implementation of Title V programs using a variety of oversight activities. For
            example, the EPA conducted the following activities to oversee permitting
            authorities on issues related to Title V revenues, expenses and accounting:




15-P-0006                                                                                     9
                  Review of state and local regulations during the initial Title V program
                   approval process.
                  Response to public petitions.
                  Communications with state and local agencies.
                  Independent fee audits.
                  Periodic Title V program evaluations.
                  Issuance of NODs.
            However, the EPA’s oversight of Title V program revenues, expenses and
            accounting has changed over the years, with the agency lately placing less
            emphasis on overseeing these aspects of the Title V program.

            The EPA issued several Title V guidance documents in 1993. The fee schedule
            guidance provided guidance related to Title V fees in the following areas:

                  General principles.
                  Activities expected to be funded by permit fees.
                  Flexibility in fee structure design.
                  Initial program approvability criteria.
                  Future adjustments to fee schedule.

            The fee demonstration guidance provided a general framework for permitting
            authorities to identify Title V program areas, functions and tasks performed
            within the permit program, and estimate annual cost. The agency then evaluated
            Title V revenues, expenses and accounting during review and approval of state
            and local Title V programs. While the EPA allowed permitting authorities
            significant flexibility in establishing a fee structure sufficient to cover all
            reasonable direct and indirect costs of the permit program, the EPA stated in its
            1993 fee schedule guidance that states are obligated to update and adjust their fee
            schedules periodically if they are not sufficient to fund the reasonable direct and
            indirect costs of the permit program.

            EPA regions also conducted independent fee audits of selected permitting
            authorities in the late 1990s and early 2000s. In 2003, the EPA shifted its
            oversight emphasis toward Title V program evaluations, and encouraged EPA
            regions to conduct fee audits on an as-needed basis as part of their Title V
            program evaluations. In the program evaluations, the EPA evaluated aspects of
            Title V program implementation and included a limited review of program
            revenues, expenses and accounting. After the initial round of evaluations, most
            regions began moving away from the program evaluation guidance and placed
            less emphasis on evaluating Title V program revenues, expenses and accounting
            structures. Figure 1 shows how the EPA’s Title V oversight has evolved,
            specifically as it relates to Title V revenues, expenses and accounting.




15-P-0006                                                                                     10
Figure 1: Overview of evolution of EPA oversight of Title V revenues, expenses and accounting

                              Late 1990s/                                                                 2013
                              early 2000s                                                          Oversight focus on
                                                   1997/early 2000s                                  Title V permit
        1993                 State and local                                     2003
                                                     OAQPS issues                                  review, and Title V
    OAQPS issues                permitting                                 EPA regions begin
                                                  fee audit protocol                                    program
  fee schedule and             authorities'                                conducting Title V
                                                     guidance and                                  evaluations. Scope
 fee demonstration              programs                                       program
                                                  conducts some fee                                    of program
      guidance.             reviewed by EPA                                  evaluations.
                                                        audits.                                      evaluations is
                           for Title V program                                                       determined by
                                approval.                                                             each region.


Source: OIG analysis EPA regions’ responses to OIG survey.



                     As of January 2013—nearly 10 years after the agency began conducting Title V
                     program evaluations—the EPA had completed 119 Title V program evaluation
                     reports. These reports, along with other oversight activities conducted by the
                     agency, identified several potential issues related to the sufficiency of Title V
                     revenues, expenses and accounting practices. For example, the EPA issued two
                     NODs to address insufficient Title V fees for permitting authorities and for not
                     adequately ensuring that collected fees are being used solely for Title V costs.
                     One NOD was a result of the agency’s Title V program evaluation process.
                     However, as of 2013, one EPA region no longer conducted Title V program
                     evaluations, and most other regions no longer included reviews of Title V
                     revenues, expenses and accounting as part of their program evaluation efforts.

                     In response to our survey of 10 EPA regions, six EPA regions identified
                     permitting authorities where the region stated it had resolved past Title V fee
                     adequacy or accounting issues with the permitting authorities. Appendix A
                     provides examples where the agency worked with permitting authorities to
                     address Title V revenue, expense and accounting issues.

EPA Has Not Consistently Identified and Obtained Corrective Actions
for Title V Revenue and Accounting Issues
                     For the nine permitting authorities we reviewed, the EPA had not consistently
                     identified or obtained corrective actions for issues related to sufficiency of Title V
                     revenues or the inappropriate use of non-Title V revenues. We asked all 10 EPA
                     regions to identify any permitting authorities in their region that were not
                     collecting sufficient Title V revenues to cover Title V program costs. None of the
                     EPA’s 10 regional offices identified any permitting authorities that were not
                     collecting sufficient Title V revenues.11 However, through our survey, we found


11
  EPA Region 2 noted in response to our draft report that, at the time of OIG’s survey, the region had anticipated
there may have been revenue sufficiency problems at the New York State Department of Environmental
Conservation. However, the region had to wait until its 2014 program evaluation to fully evaluate the effects of New




15-P-0006                                                                                                           11
                  that annual Title V revenues were not sufficient to cover annual Title V expenses
                  62 percent of the time (28 out of 45 observations) from 2008 to 2012. Further,
                  four of the nine permitting authorities used non-Title V revenues12 to support their
                  Title V programs. In our view, the fact that the agency did not identify these types
                  of fee sufficiency issues indicates a significant weakness in the agency’s oversight
                  process.

                  Significant Concerns Regarding the Sufficiency of Title V Revenue

                  In our 2012 survey of EPA regions, we asked them to identify any permitting
                  authorities in their region that were not:

                          Properly using Title V revenues solely to cover Title V program costs.
                          Collecting sufficient Title V fees to cover Title V program costs.

                  Region 6 was the only region that identified a permitting authority (Louisiana)
                  that may not have been properly using Title V revenues solely to cover Title V
                  costs. In response to our survey, no regions identified any permitting authorities
                  that were not collecting sufficient Title V revenues to cover program costs. Also,
                  OAQPS personnel told us they were not aware of any permitting authorities
                  where Title V fees were a problem. However, this was not consistent with the
                  information we obtained from the permitting authorities we surveyed. In our
                  view, this is an indication of weaknesses, or gaps in information, in the agency’s
                  oversight.

                   Our survey of permitting authorities indicated that annual Title V revenues have
                  struggled to keep pace with Title V program costs in recent years. We found a
                  general decline in annual Title V revenues and expenditures from 2008 through
                  2012 in both the combined data and across individual permitting authorities.
                  Permitting authorities can draw down surpluses of Title V revenues carried over
                  from previous years in the event a given year’s Title V costs exceed revenues.
                  However, the frequency of occurrences in our sample in which annual Title V
                  costs exceeded annual Title V revenues (62 percent) is a condition that EPA
                  should closely monitor.

                  We combined all the Title V revenue data and, separately, combined all the
                  Title V program cost data for the nine permitting authorities in our sample. As
                  Table 2 shows, the combined Title V revenues for the permitting authorities we
                  sampled covered about 90 percent of the combined Title V program costs.




York’s 2009 Title V fee increase. Region 2’s oversight of New York’s Title V fees is discussed in more detail in
Appendix B.
12
   40 CFR Part 70 requires Title V owners or operators to pay fees sufficient to cover Title V program costs. It also
requires that these fees be used solely for permit program costs. Based on this requirement, we considered any fees
paid by sources other than Title V sources—and any fees not used solely for Title V costs—to be non-Title V fees.



15-P-0006                                                                                                           12
            Table 2: Combined Title V revenues and costs between 2008 and 2012 for
            nine permitting authorities surveyed.
                                                                            Percentage of combined
                         Combined Title V         Combined Title V          Title V costs covered by
              Year          revenues                 expenses              combined Title V revenues
              2008        $124,913,654             $133,679,424                        93%
              2009         123,846,127              139,602,911                        89%
              2010         120,008,313              137,171,710                        87%
              2011         112,629,524              135,220,507                        83%
              2012          121,938,646              126,646,390                       96%
              Total        $603,336,264             $672,320,942                       90%
            Source: OIG analysis of permitting authorities’ responses to OIG survey.


            The percentage of total Title V costs covered by total Title V revenues at the
            permitting authorities we surveyed declined 10 percent between 2008 and 2011
            (from 93 percent to 83 percent), rebounding up to 96 percent in 2012. However,
            in 2012, the combined annual Title V revenue and percentage of combined costs
            covered by combined revenues both increased.

            The trend reversal from 2008–2011 to 2012 was largely accounted for by changes
            in fee revenue seen at the Texas Commission on Environmental Quality. The
            Texas change resulted in an increase in 2012 of more than $9 million in combined
            Title V revenue shown in Table 2 compared to 2011 revenue. Further, the
            percentage of 2012 combined Title V costs covered by combined Title V revenue
            was improved by a reduction in the combined 2012 Title V costs for the
            permitting authorities by about 6 percent from the 2011 combined total. This may
            be due to permitting authorities’ reductions in staffing. Six of nine permitting
            authorities we surveyed had experienced reductions in full-time equivalents over
            the past 5 years.

            When breaking out the annual revenue and expense data to the individual
            permitting authorities, we found that annual Title V revenues were not sufficient
            to cover all annual Title V expenses 62 percent of the time from 2008 through
            2012. The majority of these instances occurred in four permitting authorities:

                     Illinois Environmental Protection Agency (Illinois EPA).
                     Louisiana Department of Environmental Quality (Louisiana DEQ).
                     New York State Department of Environmental Conservation
                      (New York State DEC).
                     Pennsylvania Department of Environmental Protection (Pennsylvania DEP).

            The data for these four authorities showed that:

                     These authorities represented over two thirds of the instances (19 of 28)
                      where permitting authorities did not generate sufficient annual Title V
                      revenues to cover annual Title V costs.



15-P-0006                                                                                              13
                            Annual Title V revenues were not sufficient to cover annual Title V
                             expenses 95 percent of the time from 2008 to 2012 for these authorities.
                            Three of the authorities (Illinois EPA, Louisiana DEQ and New York
                             State DEC) did not have sufficient annual Title V revenues to cover
                             annual Title V costs in any of the 5 years from 2008 to 2012.

                    In addition, Title V expenses for the Indiana Department of Environmental
                    Management (Indiana DEM) exceeded Title V revenues for 3 of the 5 years.

                    Conversely, four of nine permitting authorities reported annual Title V revenues
                    sufficient to cover annual Title V expenses a majority of the time between 2008
                    and 2012. These four permitting authorities were:

                            Florida Department of Environmental Protection (Florida DEP).
                            South Coast Air Quality Management District (South Coast AQMD).
                            Ohio Environmental Protection Agency (Ohio EPA).
                            Texas Commission on Environmental Quality (Texas CEQ).

                    Annual Title V revenues exceeded Title V expenses for:

                            Four of 5 years (80 percent) at Florida DEP and South Coast AQMD.
                            Three of 5 years (60 percent) at Ohio EPA and Texas CEQ.

                    Table 3 summarizes the frequency of observances from 2008 to 2012 where
                    annual Title V expenses exceeded annual revenues for the nine permitting
                    authorities surveyed.

Table 3: Frequency of occurrences in which annual Title V expenses exceeded annual Title V
revenues among surveyed permitting authorities (2008–2012)a
                                  Number of        Number of years surveyed               Percentage of years
                                     years             that annual Title V               surveyed that annual
                                   surveyed           expenses exceeded               Title V expenses exceeded
     Permitting authority        (2008–2012)        annual Title V revenues            annual Title V revenues
 Florida DEP                            5                         1                                20%
 Illinois EPA                           5                         5                               100%
 Indiana DEM                            5                         3                                60%
 Louisiana DEQ                          5                         5                               100%
 New York State DEC                     5                         5                               100%
 Ohio EPA                               5                         2                                40%
 Pennsylvania DEP                       5                         4                                80%
 South Coast AQMD                       5                         1                                20%
 Texas CEQ                              5                         2                                40%
 Totals                                45                         28                               62%
Source: OIG analysis of permitting authorities’ responses to OIG survey.
 a   Appendix D provides figures that include annual Title V revenue and expense amounts for each permitting authority.




15-P-0006                                                                                                          14
            Among the permitting authorities we surveyed, seven of nine experienced overall
            decreases in annual Title V revenues and expenditures from 2008 to 2012. The
            percentage change in 2012 Title V revenues and expenses (compared to 2008) for
            each permitting authority in our sample is shown in Table 4.
            Table 4: Percent change in 2012 annual Title V revenues and expenses
            (compared to 2008) for surveyed permitting authorities
                                          Percent change in 2012                Percent change in
                                           Title V revenue from             2012 Title V expenses from
             Permitting authority          2008 Title V revenue               2008 Title V expenses
             Florida DEP                             -21%                                 -14%
             Illinois EPA                            -13%                                 -11%
             Indiana DEM                             -10%                                 -12%
             Louisiana DEQ                           -10%a                                 4%
             New York State DEC                      -16%                                 -17%
             Ohio EPA                                -11%                                 -17%
             Pennsylvania DEP                        -21%                                 -3%
             South Coast AQMD                        134%                                167%
             Texas CEQ                                6%                                  -8%
             Source: OIG analysis of permitting authorities’ responses to OIG survey.
                Note: Revenue figures for Illinois are computed without consideration for $2 million in revenue
                from a sales tax on sorbents that Illinois EPA reported as Title V revenue in 2012.
                a Revenue figures for Louisiana only include revenue reported by Louisiana DEQ as Title V

                revenue. As discussed in Appendix C, Louisiana DEQ used non-Title V revenue from its
                Environmental Trust Fund to cover from $2.9 million to $4.1 million of its annual Title V
                expenditures between 2008 and 2012.


            Permitting authorities can draw down surpluses of Title V revenues carried over
            from previous years in the event a given year’s Title V costs exceed Title V
            revenues. Thus, a Title V revenue deficit for 1 year (or even multiple annual
            deficits) does not mean that a permitting authority has an inadequate fee structure.
            However, frequent annual deficits can diminish program account balances built up
            in previous years. For example, according to New York State DEC personnel, New
            York’s Operating Permit Program account balance was $3.25 million on April 1,
            2008, after unloading expenses to General Fund Appropriations. By the end of
            2012, however, the account had a deficit of over $16 million. Similarly,
            Pennsylvania DEP reported a Title V account balance of over $25 million in 2010
            but, according to a 2013 Pennsylvania rulemaking, “a deficit of $7.235 million is
            projected for the Title V Major Emission Facilities Account by the end of Fiscal
            Year 2015–2016. Funds sufficient to support the program need to be collected
            before the fund is in deficit.”

            As shown in Table 3, three of nine permitting authorities did not have annual
            Title V revenues sufficient to cover annual program costs at any point during
            2008 to 2012. Specifically, from 2008 to 2012:




15-P-0006                                                                                                    15
                         Illinois EPA funded about 90 percent of its Title V costs with Title V
                          revenues.
                         Louisiana DEQ only funded about 54 percent of its Title V costs with
                          Title V revenues.
                         New York State DEC Title V revenues were enough to only support about
                          56 percent of Title V costs.
                 Further details on these three permitting authorities are in Appendix B.

                 This is a trend of concern that signals the need for closer EPA monitoring and
                 review of these permitting authorities’ fee structures. The National Association of
                 Clean Air Agencies (NACAA) surveyed state and local Title V programs in
                 August 2011. The results of that survey demonstrate that permitting authorities
                 beyond those we identified may be experiencing Title V revenue shortfalls.
                 Eleven of 32 states (over 34 percent) responded to the NACAA survey that their
                 state permitting authorities did not collect sufficient Title V fees, or other
                 responses in the survey indicated that the fees may have not been sufficient to
                 cover Title V program costs (see Table 5).
Table 5: Selected results of 2011 NACAA survey on Title V fee sufficiency
                                  Information from NACAA survey indicating Title V revenue
       State                                    was not or may not be sufficienta
 Illinois            After fees trended downward by about 2 percent a year over the last several years,
                     the state increased its fees.
 Iowa                State-reported fees not sufficient; said reductions made to balance budget.
 Kentucky            Eliminated 12 positions and made other cuts.
 Michigan            Reported insufficient revenue in survey and made reductions in program.
 Missouri            Program cut by 19 percent last 3 years.
 New Jersey          Collected fees to only fund 50 percent of program.
 Ohio                Funded 90 percent of program.
 Massachusetts       Fees cover about 65 percent of program; legislature allocated funds to cover shortfall.
 Rhode Island        Budget has been cut 13.5 percent from the fiscal year 2009 budget.
 Georgia             Fees have gone down and state cut costs.
 Virginia            Fees fund about 70 percent of program.
Source: OIG evaluation of NACAA Title V Fees Survey, State by State Results, September 2011
   a We  asked the EPA regions about 12 states that showed indications of fee sufficiency issues per their responses
   to the 2011 NACAA survey, and we reviewed program evaluations for those states that were completed within the
   timeframe that the NACAA survey was conducted. EPA regions confirmed that the information provided by six
   states accurately described the financial situation of the state at the time the NACAA survey was completed, and
   we were able to confirm the information provided in the NACAA survey for two states through program
   evaluations. We excluded one state from the table based on additional information provided by EPA Region 9.
   For the remaining three states, program evaluations had not been completed within the timeframe of the NACAA
   survey for these states, and the regions responded to our question by addressing the status of the permit
   backlogs for these states. These three states and their responses to the NACAA survey are included in Table 5.

                 Some Permitting Authorities Used Non-Title V Revenues to Support
                 Title V Programs

                 Three of the nine permitting authorities we surveyed reported using what we
                 believe to be non-Title V revenues to fund their Title V program, and one said
                 they could use such non-Title V revenue for their Title V program. According to


15-P-0006                                                                                                        16
            the CAA, only funds collected from 40 CFR Part 70 sources may be used to fund
            a state’s permit program. The CAA also requires that any fee collected under
            Title V be used solely to cover permit program costs. The amounts of non-Title V
            revenue used by the permitting authorities we surveyed varied, but ranged up to
            about $8 million in a given year. State personnel told us their use of non-Title V
            revenues was due to political and economic desires to avoid significant fee
            increases on industry sources. Of the authorities we surveyed, we found that:

                  Illinois EPA used up to $2 million annually from a sales tax on sorbents to
                   fund its Title V expenses.
                  Louisiana DEQ used funding from its Environmental Trust Fund,
                   characterized as “Non-Title V Air Revenue,” to cover from $2.9 million to
                   $4.1 million annually of its Title V expenditures between 2008 and 2012.
                  New York State DEC used from $6.2 million to $8.3 million annually of
                   non-Title V revenue from 2008 to 2012 to cover Title V program
                   expenses. Personnel said the state uses funds from the state’s General
                   Fund and other funding sources to cover annual shortfalls.
                  Ohio EPA said it could use revenues from solid waste tipping fees to fund
                   its Title V program if needed.

            Details are in Appendix C.

EPA’s Oversight Is Hampered by Lack of National Strategy and
Challenges in Enforcing Part 70 Requirements
            While the agency has worked with permitting authorities in the past to address
            Title V revenue sufficiency and accounting issues, the agency’s lack of emphasis
            on oversight in recent years creates risks that Title V programs are not properly
            funded, program funds may be misused and programs may not be well
            implemented. In our view, the EPA’s oversight of Title V programs’ revenues and
            expenses has been hampered by:

                  Lack of a national strategy for conducting Title V fee oversight.
                  Outdated guidance.
                  Lack of financial or accounting expertise among program staff.
                  Reluctance by some regions to pursue more stringent corrective actions.

            Lack of a National Strategy for Conducting Oversight

            EPA’s lack of a national strategy resulted in inadequate oversight of Title V
            program fees and accounting for some permitting authorities. The results of our
            survey of the 10 regions indicated that regions conduct oversight of Title V
            program fees and accounting differently. For example, Region 4 reported that it
            conducts three program evaluations per year, with each permitting authority with
            more than 20 sources being covered on a 4-year cycle. In contrast, Region 10
            responded that it has not conducted any program evaluations since 2008.



15-P-0006                                                                                    17
                 According to Region 10, “Given, in part, that the permitting authorities have
                 demonstrated a good understanding of the Title V fee management requirements,
                 Region 10 has not made Title V program evaluations a priority since 2008.”
                 According to our survey of all 10 EPA regions:

                         No regions reported conducting oversight of Title V program revenues,
                          expenses or accounting on a routine basis.
                         Four of 10 regions only review Title V program revenues, expenses or
                          accounting as part of periodic program evaluation efforts.
                         Five of 10 regions only review Title V revenue, expense or accounting
                          information on a targeted or as-needed basis, or do not review this
                          information at all.
                         Four of 10 regions rely on program implementation measures, such as
                          permit backlogs, to determine whether permitting authorities are collecting
                          sufficient Title V revenues to cover all program costs.
                         One EPA region (Region 10) stated that it no longer conducts Title V
                          program evaluations.

                 Further, once EPA regions had conducted initial program evaluations, subsequent
                 program evaluations generally covered issues that regional personnel thought
                 were appropriate. Most regions said they did not continue to use OAQPS’ 2003
                 program evaluation guidance as a template for their reviews. OAQPS told us that
                 much of its attention has been directed toward reviewing petitions on individual
                 Title V permits and issuing greenhouse gas regulations. As a result, OAQPS has
                 not actively overseen program evaluations conducted by the regions on the state
                 and local permitting programs.

                 Outdated Guidance

                 Only three of the 10 regions stated that they still follow the 2003 OAQPS
                 program evaluation guidance. This guidance included a limited review of program
                 revenues, expenses and accounting. Fee audits were completed by some EPA
                 regions prior to 2004, but only EPA Region 2 reported that it still performs fee
                 audits as part of its Title V program evaluations. In reviewing EPA regions’
                 Title V program evaluations, we noted that EPA Region 8 included fee audits as
                 part of it Title V program evaluations.

                 Even in situations where EPA regions included a review of Title V resources in
                 their program evaluations, the frequency of such evaluations varied across EPA
                 regions. For example, although most regions have completed at least one round of
                 program evaluations for its permitting authorities, Region 9 is still in the initial
                 round of program evaluations. The region, which oversees 43 authorities,13 has
                 yet to complete a program evaluation for three of its permitting authorities,
                 including the South Coast AQMD (one of the authorities in our sample, and the

13
  A Region 9 manager told us the region focuses its Title V program evaluations on permitting authorities with
20 or more Title V sources located in the authority’s jurisdiction, which was 12 authorities, according to OAQPS.



15-P-0006                                                                                                           18
            eighth largest permitting authority in the U.S. based on number of active Title V
            permits as of June 2012).

            OAQPS’ 1993 Title V fee schedule and fee demonstration guidance has not been
            updated in over 20 years. Since issuance of this guidance, EPA regions have
            raised numerous policy questions. For example, managers in Regions 3, 6 and 9
            indicated that the circumstances for which Title V funding can be used for
            preconstruction permit activities has not been clearly addressed.

            In the early 1990s, OAQPS issued Title V program guidance related to fee and
            revenue oversight, including:

                  August 1993 guidance for fee schedules – Provided the EPA’s
                   interpretation of the list of activities that must be funded with Title V fee
                   revenue, as well as the procedure for demonstrating that fee revenues are
                   adequate to support a permit program.

                  November 1993 Title V Fee Demonstration guidance – Provided that
                   regardless of the type of fee demonstration a permitting authority elected
                   (either a detailed fee demonstration or adopting the presumptive
                   minimum), all permitting authorities were required to submit an initial
                   accounting of how fee revenues will be used solely to cover the costs of
                   the permitting program. This initial accounting, according to the guidance,
                   should include a description of administrative and accounting controls.

            Two of the six regions in our sample told us that OAQPS needs to update and
            clarify its guidance on accounting and fees.

            Lack of Financial or Accounting Expertise Among Program Staff
            Personnel in multiple EPA regions cited a number of “challenges” that impact
            their ability to perform effective oversight. These included staffs’ lack of financial
            or accounting expertise. Three of the six regions we spoke to reported that they
            would like access to an expert in the financial and accounting field to assist them
            with their financial oversight. In our view, the lack of financial or accounting
            expertise across EPA regions could be addressed by collaborating and sharing
            financial expertise among the regions.

            Region 2 indicated the region does not have a sufficient number of staff to cover
            each permitting authority in the region. With four permitting authorities in the
            region—two being in the Caribbean—the region’s Title V full-time equivalents
            can only conduct a program evaluation on a permitting authority once every
            4 years. Further, evaluation of the two Caribbean permitting authorities is further
            hampered by the lack of travel funds.




15-P-0006                                                                                      19
                 Reluctance to Pursue More Stringent Corrective Actions

                 Some EPA regions expressed a reluctance to take steps toward formally
                 determining whether permitting authorities were meeting 40 CFR Part 70
                 requirements and then taking action. Personnel in some regions told us they were
                 reluctant to require fee demonstrations due to the potential for such information,
                 once collected, to require formal EPA action, such as issuance of a NOD. A
                 manager in Region 3 told us that the EPA was unlikely to pursue a formal action
                 such as a NOD unless the region believed it would receive cooperation from a
                 permitting authority to address program deficiencies.

                 Title 42 U.S. Code § 7661a(i)(1) allows the Administrator to make a
                 determination as to whether a permitting authority is adequately administering
                 and enforcing a program. Once the determination is made, certain statutorily
                 mandated consequences, including the issuance of a NOD, follow. However, the
                 decision as to whether to make that determination as an initial matter is a
                 discretionary one.14 Three court cases have held that while the CAA requires the
                 EPA to issue a NOD when it has determined that a program is not being
                 adequately administered or enforced, this non-discretionary obligation arises only
                 after a discretionary determination by the EPA.15

                 Regional permitting staff told us that it would be difficult for the EPA to take over
                 a permitting authority’s Title V program if the permitting authority could not
                 correct the problem within 18 months16 after an NOD was issued. For example:

                         A Region 5 manager told us that issuing a NOD would be an “extreme
                          option,” and that his region’s preference for correcting problems at a
                          permitting authority would be creating a workplan for the permitting
                          authority, or using other means.

                         A Region 3 manager told us that the CAA and Part 70 do not provide
                          interim options for dealing with Title V program deficiencies. The EPA
                          has used several oversight activities to monitor and encourage compliance
                          with Part 70 requirements, but a Region 3 manager told us it was not in the
                          agency’s best interest to have a “heavy hand” in dealing with state and
                          local agencies, and that it had generally been her position to defer to the
                          states’ and permitting authorities’ ability to manage themselves in regard
                          to Title V fee adequacy issues. She said the only real option the EPA has
                          in forcing corrective actions at a permitting authority is to take back the
                          Title V program after issuing a NOD, which this manager said the EPA is
                          not in a position to do.

14
   New York Public Interest Research Group v. Whitman, 321 F.3d 316, 330-31 (2d Cir. 2003).
15
   New York Public Interest Research Group v. Whitman, 321 F.3d 316, 330-31 (2d Cir. 2003); Public Citizen v.
EPA, 343 F.3d 449, 464 (5th Cir. 2003); Ohio Public Interest Research Group v. Whitman, 385 F.3d 792 (6 th Cir.
2004).
16
   42 U.S.C. § 7661a(i)(4); 40 CFR 70.10(b)(4).



15-P-0006                                                                                                         20
                  A Region 2 manager told us that he does not believe a NOD would be an
                   effective mechanism for addressing Title V revenue and accounting issues
                   given that the two Region 2 states that are experiencing Title V revenue
                   shortfalls (New York and New Jersey) are already charging a “fairly high
                   fee.” He said that states’ concerns of driving out businesses with even
                   higher fees may prompt states to relinquish their Title V programs to the
                   EPA. According to this manager, his region does not have the resources to
                   take over a Title V program for states the size of New York or New Jersey.

Oversight Weaknesses and Downward Trends in Title V Revenues
Jeopardize Program Implementation
            The agency’s weakness in identifying and obtaining corrective actions for issues
            related to Title V revenue sufficiency and accounting practices, coupled with
            declining resources for some permitting authorities, presents risks to state and
            local Title V program implementation. These include risks to program quality and
            a program’s ability to carry out all 40 CFR Part 70 requirements. Seven of nine
            permitting authorities reported that Title V revenues had declined over the 5-year
            period from 2008 to 2012, while Title V expenses also declined for seven of the
            nine permitting authorities over this same period. Appendix D provides Title V
            revenue and expense trends for permitting authorities we surveyed.

            All nine of the permitting authorities we surveyed reported decreasing emissions.
            For example, the Pennsylvania DEP reported a 50-percent decrease in emissions
            from 2008 to 2011 (from 1,162,097 to 582,270 tons). New York State DEC
            reported a 41-percent decrease from 2007 to 2011 (from 232,027 to 137,416 tons).
            While the trend of decreasing emissions is a positive environmental outcome, we
            found that the permitting authorities we surveyed relied heavily on such fees to
            fund their Title V programs. Further, some permitting authorities told us that their
            workloads had not declined commensurate with the decline in emissions. Reasons
            given for the decreased emissions included:
                  Closure or deactivation of large coal-fired electric generating units.
                  The increased availability and low cost of natural gas.
                  The installation of air pollution controls.
                  The economy.
                  Technological advances.
                  Permitting requirements.
                  Actions taken to comply with regulations.
            Some permitting authorities cited reduced emissions as the reason for decreased
            Title V revenue. Pennsylvania’s DEP staff told us they are projecting a $4-million
            cut in Title V revenues by 2016 (from 2012 levels) due to closure of coal-fired power
            plants. Similarly, Illinois EPA staff said they recently lost several large coal-fired
            power plants as Title V sources, resulting in a revenue loss of $294,000 per source.



15-P-0006                                                                                    21
                 The trend of decreasing emissions is important to Title V program funding because
                 the majority of permitting authorities have fee structures that rely heavily on
                 emissions. Eight of nine authorities reported to us that the majority of their Title V
                 revenues are from emission fees (all except South Coast AQMD). Such reliance on
                 emissions fees can cause funding issues in some permitting authorities with
                 decreasing emissions, as revenues generated from fees charged per ton of emissions
                 would decrease with emissions. For example, Pennsylvania DEP’s 2012 proposal
                 for a revised Title V fee structure is for an $85-per-ton fee for emissions, up to
                 4,000 tons annually. However, Pennsylvania DEP staff said that even with an
                 increased base fee rate (to $85 per ton of emissions, if approved), they are
                 projecting a Title V deficit within 2 to 3 years after the new fee rate is in effect.

                 An additional factor was the significant number of permitting authorities that did
                 not have automatic fee increases tied to the Consumer Price Index (CPI).17 The
                 CAA specifies in §7661a(b)(B)(i) that the total amount of fees collected by a
                 permitting authority from sources subject to Title V requirements must not be less
                 than $25 per ton of each regulated pollutant, or such other amount as the
                 Administrator may determine adequately reflects the reasonable costs of the
                 permit program. The CAA also requires that the fee calculated under
                 §7661a(b)(B)(i) be increased (consistent with the need to cover the reasonable
                 costs of the permit program) each year by the percentage that the CPI for the most
                 recent year exceeds the CPI for 1989 (42 U.S.C. §7661a(b)(B)(v)). However, five
                 of the nine permitting authorities we surveyed did not adjust their Title V fees
                 according to the CPI.

                 Continued declines in revenues, and subsequent potential cuts to program expenses,
                 may strain permitting authorities’ ability to cover program costs and carry out all
                 required program activities. Permitting authorities reported to us reductions in
                 expenditures for the following types of Title V program activities:

                         Preparing generally applicable regulations or guidance regarding the
                          permit program or its implementation or enforcement (two of nine).
                         Staff training related to Title V permitting (one of nine).
                         Compliance and enforcement-related activities (inspections, audits,
                          issuance of NOVs, etc.) for 40 CFR Part 70 sources (two of nine).
                         Emissions and ambient monitoring associated with Title V sources or
                          permits (one of nine).
                         Modeling, analysis, or demonstrations associated with Title V sources or
                          permits (one of nine).
                         Preparing emission inventories and tracking emissions for Title V sources
                          (one of nine).




17
  The CPI for any calendar year is the average of the CPI for all urban consumers published by the Department of
Labor for the 12-month period ending August 31 of each year.



15-P-0006                                                                                                          22
                  Public outreach, notification, public hearings, responses to public
                   comments, and small business assistance related to 40 CFR Part 70
                   sources (one of nine).

            One permitting authority attributed the reduction in its expenditures to efficiency
            improvements (“right sizing” the organization to conduct more work in less time,
            with less staff) and others attributed the reductions in expenditures to declining
            revenues. Permitting authorities also noted the need to shift equipment purchases
            to non-Title V accounts and make adjustments to indirect rates.

            In addition, six of nine permitting authorities reported decreases in staffing, also
            known as full-time equivalents. Such decreases can negatively impact the
            permitting authority’s ability to perform all required program functions, including
            issuing timely permits and conducting site inspections.

            Personnel at multiple permitting authorities we interviewed stated that there are
            political and economic pressures to limit Title V fee increases. The fact that
            permitting authorities are facing these types of externalities makes the EPA’s role
            in overseeing Title V fee revenues and expenditures an important one. The agency
            needs to ensure that such factors are not placing programs at risk of failing to
            meet 40 CFR Part 70 requirements.

Conclusions
            Permitting authorities are facing declining Title V fee revenues resulting from
            their reliance on emission-based fee structures, as well as other factors listed
            above. Improved agency oversight of Title V revenues and accounting is key to
            successful implementation and performance of state and local Title V programs.
            Improved EPA oversight should minimize future risks to program performance
            brought about by inadequate fee revenues and potential future demands on
            permitting authorities as the EPA moves toward regulation of greenhouse gases.
            The EPA should take steps to improve its oversight of Title V fee and accounting
            practices; update its fee guidance; develop an oversight strategy; and take
            appropriate, timely and direct action when accounting and fee sufficiency
            problems occur over extended periods without effective corrective actions.

Recommendations

            We recommend that the Assistant Administrator for Air and Radiation:

               1. Assess whether the EPA’s 1993 fee schedule guidance sufficiently
                  addresses current program issues and requirements related to how Title V
                  fees should be collected, retained, allocated and used. Revise the fee
                  guidance as necessary and re-issue to EPA regions.




15-P-0006                                                                                     23
               2. Issue guidance requiring EPA regions to periodically obtain and assess
                  authorized state and local permitting authorities’ Title V program
                  revenues, expenses and accounting practices to ensure that permitting
                  authorities collect sufficient Title V revenues to cover Title V program
                  costs.

               3. Establish a fee oversight strategy, including a hierarchy of actions and
                  related timeframes, to ensure that EPA regions take consistent and timely
                  actions to identify and address violations of 40 CFR Part 70 Title V fee
                  revenues, expenses and accounting practices.

               4. Ensure that EPA regions complete program evaluation reports of
                  authorized state and local permitting authorities within a reasonable period
                  of time following the evaluation, and require that EPA regions publicly
                  issue these program evaluation reports.

               5. Require that EPA regions periodically emphasize and include reviews of
                  Title V fee revenue and accounting practices in Title V program
                  evaluations.

               6. Require that EPA regions address shortfalls in the financial or accounting
                  expertise among regional Title V program staff as the regions update their
                  workforce plans. This may include resource sharing and collaboration with
                  other EPA regions, or use of outside organizations, as appropriate.

               7. Require that EPA regions re-assess permitting authority fee structures
                  when revenue sufficiency issues are identified during program
                  evaluations, and require fee demonstrations as necessary.

               8. Require that EPA regions take action on permitting authorities not in
                  compliance with 40 CFR Part 70 by finding them to be inadequately
                  administered or enforced, and issuing the required NODs.

Agency Comments and OIG Evaluation

            OAR concurred with all recommendations, and provided acceptable planned
            corrective actions and completion dates for all recommendations, as clarified at
            the exit conference and in subsequent communications with the OIG. We consider
            all eight recommendations to be resolved and open, with agreed-to corrective
            actions pending.

            In general, the EPA believes that its commitment to develop and issue a fee
            oversight strategy guidance document will be an effective response to the OIG’s
            recommendations. We agree that such a document, which incorporates all of the
            elements addressed by our recommendations, will be responsive to our report’s




15-P-0006                                                                                    24
            recommendations. We amended two recommendations based on agency
            comments and information provided by OAR at the exit conference, as follows:

                  We revised Recommendation 4 to require that EPA regions complete
                   program evaluation reports within a reasonable period of time following
                   the evaluation as opposed to requiring that EPA regions complete these
                   reports within the same fiscal year they were conducted.

                  We revised Recommendation 5 to require that EPA regions periodically
                   emphasize and include reviews of Title V fee revenue and accounting
                   practices in Title V program evaluations as opposed to requiring that EPA
                   regions review fee revenue and accounting practices as part of every
                   program evaluation they conduct.

            OAR also provided detailed comments in an attachment to its response to the
            draft report. We made revisions to our report to address OAR’s detailed
            comments where appropriate. Appendix E contains OAR’s response to our report
            recommendations, and its proposed corrective actions, as clarified at the exit
            conference and in subsequent communications with the OIG.

            We provided the nine state and local permitting authorities with excerpts of our
            draft report as it related to each permitting authority for their review and
            comment. Seven of nine permitting authorities provided comments on the draft
            report excerpts, and we made revisions to our report to address their comments as
            appropriate. Two permitting authorities chose not to provide comments.




15-P-0006                                                                                    25
                             Status of Recommendations and
                               Potential Monetary Benefits
                                                                                                                             POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                 Planned
 Rec.    Page                                                                                                   Completion   Claimed    Agreed-To
 No.      No.                         Subject                           Status1        Action Official             Date      Amount      Amount

  1       23    Assess whether the EPA’s 1993 fee schedule                O       Assistant Administrator for    9/30/17
                guidance sufficiently addresses current program                       Air and Radiation
                issues and requirements related to how Title V fees
                should be collected, retained, allocated and used.
                Revise the fee guidance as necessary and re-issue
                to EPA regions.
  2       24    Issue guidance requiring EPA regions to                   O       Assistant Administrator for    9/30/17
                periodically obtain and assess authorized state and                   Air and Radiation
                local permitting authorities’ Title V program
                revenues, expenses and accounting practices to
                ensure that permitting authorities collect sufficient
                Title V revenues to cover Title V program costs.

  3       24    Establish a fee oversight strategy, including a           O       Assistant Administrator for    9/30/17
                hierarchy of actions and related timeframes, to                       Air and Radiation
                ensure that EPA regions take consistent and timely
                actions to identify and address violations of 40 CFR
                Part 70 Title V fee revenues, expenses and
                accounting practices.

  4       24    Ensure that EPA regions complete program                  O       Assistant Administrator for    9/30/16
                evaluation reports of authorized state and local                      Air and Radiation
                permitting authorities within a reasonable period of
                time following the evaluation, and require that EPA
                regions publicly issue these program evaluation
                reports.

  5       24    Require that EPA regions periodically emphasize           O       Assistant Administrator for    9/30/17
                and include reviews of Title V fee revenue and                        Air and Radiation
                accounting practices in Title V program
                evaluations.

  6       24    Require that EPA regions address shortfalls in the        O       Assistant Administrator for    9/30/17
                financial or accounting expertise among regional                      Air and Radiation
                Title V program staff as the regions updates their
                workforce plans. This may include resource sharing
                and collaboration with other EPA regions, or use of
                outside organizations, as appropriate.

  7       24    Require that EPA regions re-assess permitting             O       Assistant Administrator for    9/30/17
                authority fee structures when revenue sufficiency                     Air and Radiation
                issues are identified during program evaluations,
                and require fee demonstrations as necessary.

  8       24    Require that EPA regions take action on permitting        O       Assistant Administrator for    9/30/17
                authorities not in compliance with 40 CFR Part 70                     Air and Radiation
                by finding them to be inadequately administered or
                enforced, and issuing the required NODs.




 O = Recommendation is open with agreed-to corrective actions pending.
 C = Recommendation is closed with all agreed-to actions completed.
 U = Recommendation is unresolved with resolution efforts in progress.




15-P-0006                                                                                                                                      26
                                                                                                                           Appendix A

            Examples of EPA Oversight Actions to Address
              Title V Accounting or Fee Adequacy Issues
 EPA       Permitting
region     authority                                             Summary of issue or EPA actions
                            EPA worked with the state to restore to the proper account Title V fees that were diverted for a short period of
           Rhode Island
                            time.
  1
                            Early in program EPA identified that fees may become insufficient to fully fund the program. Massachusetts
          Massachusetts
                            addressed issue by increasing its Title V fees.
           New Jersey       After initially approving fee structures for each permitting authority based on the presumptive minimum fee rate,
                            EPA found that the initial fee structure for both permitting authorities failed to provide sufficient funding for the
  2
            New York        Title V program. EPA provided support to New York and New Jersey in the form of letters when new fee
                            legislations were sought from their respective state legislatures.
                            A 1998 fee audit conducted by EPA found that the permitting authority was spending Title V fee revenues on
             Maryland       non-Title V activities. In response, the permitting authority stated that it made adjustments to the administrative
                            structure of its fee program and committed to a fee demonstration.
                            EPA conducted a fee review in 1999 that found (1) the permitting authority’s financial management system did
  3
                            not accurately reflect Title V revenues and expenditures; (2) the permitting authority did not bill sources for
            District of
                            emission fees, verify annual emission reports submitted by sources, or perform timely follow-up on delinquent
            Columbia
                            accounts receivable; and (3) Title V funds were not accounted for separately in the financial management
                            system.
                            In 2004, the legislature took revenue from the Title V program and placed it the general treasury account.
                            Regional Administrator contacted Mississippi Department of Environmental Quality legislature and informed
            Mississippi
                            them Title V monies could only be used for Title V purposes and that the monies had to be replaced. In July
                            2004, EPA received a letter from Mississippi stating the monies had been returned in full to the Title V account.
                            A 2006 accounting error gave the appearance that North Carolina was supplementing Title V revenues with
          North Carolina
                            state gas tax monies. Issue was resolved through conference calls with the state program office.
                            In 2007, an unusually high percentage of Title V fees were being distributed to general treasury account for
                            administrative expenses. Region 4 sent out a letter to the permitting authority asking the permitting program to
                            provide any supplemental information to explain why they had such a high percentage set aside for
              Florida
                            administrative expenses. When EPA received the supplemental information, it was the agency’s opinion that
                            the expense was too high and should be eliminated. Subsequent negotiations led to this expense being
                            eliminated from the Florida Title V operating budget and has saved the Title V program over $500,000 annually.
  4                         In 2007, Georgia's program did not have a rollover provision for its Title V account. At end of year, surplus
                            Title V revenue was swept into the general treasury funds account. Region 4 noted this issue in a letter to the
             Georgia        permitting authority, and asked what happened to the excess funds from previous years. The region concluded
                            that Georgia was not ensuring Title V revenue was being used solely to cover Title V expenses. EPA negotiated
                            with Georgia to incorporate a rollover provision into their Title V accounting practices.
                            In 2009, a permitting authority was billing the Title V account at a percentage much higher than what the region
                            believed was reflective of the amount of Title V work being completed at the permitting authority. Region 4 sent
                            a letter to the permitting authority following the program evaluation asking for supplemental information
                            regarding billing to the Title V account. The permitting authority conducted an internal audit of its work allocation
         Louisville-Metro
                            and found that actual work time being billed to the Title V account was much lower than what was being
                            practiced. The permitting authority attributed this to an accounting problem with sick time and vacation codes
                            for personnel working on Title V. The permitting authority made changes to its account coding software and
                            EPA is monitoring the permitting authority's expenses with annual reviews of its budgeting expenses.
            Wisconsin       Region issued an NOD for Wisconsin in 2004. It was resolved in 2006.
                            Region 5 requested a fee demonstration in 2009. Michigan passed legislation in October 2011 (first approved
  5                         fee increase since 2001). Michigan provided updated fee legislation, revised fee sufficiency analysis, and
             Michigan
                            additional program documentation to Region 5. The region is currently reviewing information, but its review is
                            not yet complete.
                            City initiated internal audit of program. As a result, the permitting authority established internal control
              City of
                            mechanisms for all purchase actions. A plan was developed to track the purchase and disposition of computer
           Albuquerque
                            and equipment purchases.
                            Accounting issue with tracking year in which Title V fees collected. New accounting system installed that shows
           New Mexico
  6                         fee accruals in the proper fiscal year, as well as specific account receivable payments.
                            Identified concerns related to collecting, retaining and allocating fee revenue consistent with 40 CFR 70. After
                            program evaluation in 2008, region requested that Louisiana develop a separate and discrete budget specific to
            Louisiana
                            the Title V program to ensure there are adequate funds available to cover fully the Part 70 permitting program.
                            Louisiana committed to provide budget documentation for fiscal year 2009.
Source: Summary of information obtained from EPA regions in response to OIG survey.




      15-P-0006                                                                                                                               27
                                                                                                      Appendix B

  Three Permitting Authorities Where Annual Title V
 Expenses Exceeded Revenues Each Year, 2008–2012
 Illinois EPA

Illinois EPA reported Title V annual costs exceeding annual Title V revenues in each year
between 2008 and 2012 (see Table B-1). Over the 5-year period, Illinois EPA reported that it
funded about 90 percent of its Title V costs with Title V revenues. However, these figures
overstate the portion of Title V costs that Illinois is funding with Title V revenue. According to
Illinois EPA, beginning on July 1, 2011, the permitting authority received and used up to
$2 million annually from a sales tax on sorbents18 sold in Illinois. The use of this sorbents tax to
fund Title V activities was authorized by state regulation that became effective July 1, 2011. This
fee is not part of the Title V fee structure approved by the EPA for Illinois EPA. We considered
this fee to be non-Title V revenue because it is not used solely to cover Title V program costs.

Region 5 was not aware of the change in Illinois fee structure to include the sorbent tax. When
asked, Region 5 declined to comment on whether use of this tax is an appropriate source of Title V
revenue until they obtained more information about Illinois’s use of fees from the sorbent tax. The
annual Title V revenue and expense information for Illinois EPA is presented in Table B-1,
including the sorbent sales tax funding Illinois EPA reported to us as Title V revenue.

Table B-1: Annual Title V revenues and expenses reported by Illinois EPA
                                             Illinois EPA
                                                                       % of expense
       Year               Revenue                   Expense         covered by revenue
       2008              $15,468,800               $17,926,900            86.29%
       2009                14,574,900                16,882,100            86.33%
       2010                15,624,700                17,145,400            91.13%
       2011                14,680,900                16,320,300            89.95%
       2012                15,511,500a               15,969,800            97.13%
       Total             $75,860,800               $84,244,500             90.05%
Source: OIG analysis of Illinois EPA’s response to OIG survey.
      a Includes   $2 million from a sales tax on sorbents.


Illinois EPA’s reported 2012 Title V revenues were approximately the same as its 2008
revenues, while 2012 Title V expenses declined about 11 percent from 2008 levels. Effective
January 1, 2012, Illinois EPA raised its emissions fee to $21.50 per ton from $18.00 per ton, and
increased the maximum fee that can be charged to a source from $250,000 to $294,000.

18
   According to Illinois EPA, the sorbent is an activated carbon emission control technology used primarily in coal-
fired power plants with mercury control systems. The tax is a sales tax collected on sorbent purchases. Illinois EPA
personnel told us they believe the sorbents are only purchased by major sources, primarily coal-fired power plants.

     15-P-0006
                                                                                                                  28
However, without the $2 million in 2012 revenue from the sales tax on sorbents, Illinois EPA’s
2012 Title V revenue would have declined 13 percent from 2008 levels. It would cover about
85 percent of Title V program costs in 2012.

In 2008 and 2009, Illinois EPA’s annual Title V revenues covered 86 percent of annual Title V
costs. However, since Illinois in 2011 increased Title V emission fees and enacted regulations
that allowed a portion of sales tax on sorbents to be reallocated toward funding Illinois EPA’s
Title V program, the reported percentage of annual Title V costs covered by annual Title V
revenues increased to 97 percent in 2012.

Illinois EPA’s Title V program has one of the nation’s largest backlogs of Title V permits and
permit renewals. According to the EPA’s Title V Operating Permits System, Illinois EPA’s
Title V program has approximately 20 percent of the nation’s outstanding initial Part 70
applications. Illinois EPA’s Title V program also accounted for approximately 17 percent of the
nation’s active sources with expired permits. Expired permits are those for which a renewal permit
has not been issued by the permitting authority, and the source has not submitted an application
for renewal or has not provided timely and accurate information. Illinois EPA officials reported
that revenue issues had an impact on their permit issuance and permit backlog. However, they
noted that they have hired and trained staff to work on permits.

Although Region 5 has actively worked with Illinois on implementing its Title V program, the
region has not focused on oversight of Illinois’ Title V revenues, expenses or accounting.
According to Region 5’s response to our survey, several petitioners filed a petition with the EPA
in March 2003 seeking a NOD for Illinois EPA’s failure to administer the Title V program. The
petition raised issues regarding Illinois’ permit issuance rates. It also questioned the state’s
Title V enforcement and fee sufficiency. Region 5 has not formally responded to the petitioners
on the 2003 petition and the petition is reported as pending in the EPA’s petition database. In
2012, several petitioners filed an amended petition regarding Illinois’ Title V program. They
again cited Title V revenue and permit backlog issues. The petitioners requested that Region 5
require Illinois EPA to conduct a Title V fee demonstration. Region 5 told us that it had not
requested nor received a fee sufficiency demonstration from Illinois.

EPA Region 5 conducted evaluations of Illinois EPA’s Title V program in 2006 and 2010. The
region did not identify any issues related to Title V revenue sufficiency or accounting in either
evaluation report.

Region 5 told us that it is engaged in a broader oversight effort on Illinois’ Title V program. The
region said this broader effort is designed to improve permit issuance rates, reduce the state’s
Title V permit backlog, and improve the enforceability of permits in the state. Region 5 has
established a joint workplan with Illinois EPA to address the state’s Title V permit backlog. The
region told us that fee increases will help in this effort by bringing additional resources into the
state’s Title V program. However, they said the region does not believe that fees alone are the
root cause of the issues. Region 5 cited several reasons that contributed to the Illinois Title V
backlog, including staff turnover at Illinois EPA, a statewide hiring freeze, and a cumbersome
appeal process. The region stated that it has not focused its attention on fees or fee
demonstrations.


 15-P-0006
                                                                                                    29
 New York State DEC

According to data we obtained from the New York State DEC, it funded about 56 percent of its
total Title V program costs from 2008 to 2012 with Title V fee revenue (see Table B-2). By
2012, the New York State DEC program had reached a cumulative Operating Permit Program
account deficit of over $16 million.

Table B-2: Annual Title V revenues and expenses reported by New York State DEC
                                   New York State DEC
                                                                     % of expense
  Year              Revenue                  Expensea             covered by revenue
  2008             $9,455,256               $17,760,000                 53.24%
  2009             10,903,197                18,466,000                 59.04%
  2010              9,404,481                17,405,000                 54.03%
  2011              8,606,317                14,894,000                 57.78%
  2012              7,931,334                14,763,000                 53.72%
  Total           $46,300,585               $83,288,000                 55.59%
Source: OIG analysis of New York State DEC response to OIG survey.
   a Expenses include New York State DEC, Environmental Facilities Corp., Department of Health

     and Empire State Development.


EPA Region 2 has worked with New York to address Title V fee sufficiency issues. However,
the EPA’s oversight and New York’s corrective actions have not been able to keep pace with
New York’s Title V revenue sufficiency problems. According to the EPA, during fee audits in
1999, Region 2 discovered that New York’s actual fees collected were less than their initial
projection. The issue required state legislative actions to resolve. Region 2 communicated with
New York State DEC program personnel via telephone conferences, email and letters to support
the permitting authority’s request to the state legislature for authority to increase Title V fees.
However, despite the efforts by EPA Region 2, New York has not increased its Title V fees
enough to sufficiently fund the program.

A 2006 EPA program evaluation report of New York’s Title V program again raised questions
about the program’s Title V revenue sufficiency. The report stated that:

          EPA recognizes a need for some level of action to address the apparently widening
          gap between actual revenue and revenue needed to fully support the program.

Region 2 requested a detailed accounting from New York’s permitting authority to demonstrate
that its fee schedule met the requirements of 40 CFR Part 70.9(b)(1). According to Region 2
personnel, the detailed accounting was provided to the EPA in the form of an Operating Permit
Program Annual Report. It included details on program revenues and expenses.

In 2008, EPA Region 2 wrote a letter to the Chairmen of the New York State Senate Finance
Committee and the New York State Assembly Ways and Means Committee supporting
additional fees for New York State DEC’s Title V program. Region 2 personnel stated that the
New York state legislature then raised its Title V fees in 2009. They said this was done partly

  15-P-0006
                                                                                                  30
due to the EPA’s involvement. The EPA conducted a Title V program evaluation in 2010.
However, a comprehensive fee program review was not part of that evaluation. In its 2010
evaluation report, the EPA stated that:
        …we were encouraged that the NYSDEC was recently able to work to increase
        the State of New York’s Title V fees and, as such, have determined that a full fee
        audit should wait until several cycles have passed.
Based on our review of data included in New York’s legislation, between 2010 and 2012,
New York’s Operating Permit Program account balance has gone from an account deficit of
about $6.5 million in 2010 to a deficit of over $16 million by the end of 2012. New York’s
Operating Permit Program account deficit grew nearly 150 percent after the EPA had supported a
fee increase in its 2008 letter. According to New York State DEC personnel, the revenue
shortfall is primarily a combination of reduced emissions generating less revenue and increased
agency costs, primarily associated with increases in staff salaries and fringe benefit costs.
EPA Region 2 personnel told us they are scheduled to conduct another program evaluation of
New York’s Title V program in 2014.

 Louisiana DEQ

In response to our survey, Louisiana DEQ reported annual Title V revenues significantly below
annual Title V costs each year from 2008 to 2012. Louisiana DEQ’s annual Title V revenues
ranged from 49 to 60 percent of annual Title V costs. Louisiana DEQ funded 54 percent of total
Title V costs with Title V revenue over the 5-year period. Also, while Louisiana DEQ’s Title V
revenue declined by about 10 percent over the 5-year period, its annual Title V expenses
increased by about 4 percent. Table B-3 shows Louisiana DEQ’s Title V revenues and expenses
between 2008 and 2012.
Table B-3: Annual Title V revenues and expenses reported by Louisiana DEQ
                                     Louisiana DEQ
                                                                   % of expense
    Year                Revenue                   Expense       covered by revenue
    2008               $4,290,966                $7,150,474           60.01%
    2009                4,292,268                 7,813,902           54.93%
    2010                4,392,472                 8,462,470           51.91%
    2011                3,928,328                 7,974,306           49.26%
    2012                3,879,981                 7,417,909           52.31%
    Total             $20,784,015               $38,819,061           53.54%
Source: OIG analysis of Louisiana DEQ response to OIG survey.


In our survey, Louisiana DEQ reported that 100 percent of its Title V fees are emission fees.
However, in subsequent follow-up discussions, they said Louisiana DEQ funds its Title V
program through a combination of other fees. These include permit application fees and annual
maintenance fees. However, the other revenue Louisiana DEQ uses to fund its Title V program
were characterized by Louisiana DEQ as “Paid with Non-Title V Air Revenue.” Louisiana
DEQ’s and other permitting authorities’ use of non-Title V revenue to fund a portion of their
Title V programs is discussed further in Appendix C.


  15-P-0006
                                                                                                31
                                                                                    Appendix C

     Four Permitting Authorities’ Use of Non-Title V
    Revenues to Support Title V Programs, 2008–2012
 Illinois EPA

Illinois EPA used up to $2 million annually from a sales tax on sorbents to fund its Title V
expenses. This represented about 13 percent of the permitting authority’s Title V revenue in
2012. Illinois EPA staff told us they believe that only major sources subject to Title V are
purchasing the sorbents. Thus, Title V sources are paying this “fee” in the form of a sales tax.
The Manager of Illinois EPA’s Division of Air Pollution Control in the Bureau of Air estimated
that the state collected $4 million to $5 million from its sales tax on sorbents in 2012. He also
said that about $2 million was used to fund the Title V program. According to Illinois EPA
personnel, the decision to allocate a portion of the sales tax on sorbents to its Title V program
was made to limit the amount of the state’s emission fee increase on sources in 2011.

Although Part 70 requires that any fee will be used solely for Title V permit program costs, only
a portion of Illinois’ sales tax on sorbents in 2012 was provided to the state’s Title V program.
When we asked EPA Region 5 if they considered Illinois’ use of sales tax on sorbents to be an
appropriate form of Title V revenue or if they had approved its use, they stated that “Region 5
does not have any information on Illinois using sales tax on sorbents for the Title V program.”

 New York State DEC

New York State DEC used from $6.2 million to $8.3 million annually of non-Title V revenue
from 2008 to 2012 to cover Title V program expenses. According to New York State DEC
personnel, the state uses funds from the state’s General Fund and other funding sources to cover
annual shortfalls. Our review of New York’s Title V regulation revisions in 2008, 2010 and 2012
(as well as information provided to us by New York State DEC) showed that, despite increasing
its fee structure in 2009, the New York Title V program deficit has grown from a balance of
$3.25 million in 2008 to a negative balance of over $16 million by the end of 2012. New York
State DEC personnel told us that a “structural problem” in the account existed in 2008, and that
the account balance only appeared to be positive in 2008 after unloading expenses to General
Fund Appropriations.

Personnel at New York State DEC indicated that political and economic factors were reasons for
why the state legislature was not likely to increase Title V fees in the near future. New York
State DEC personnel told us that the executive level of state government has so far ensured that
the New York State DEC’s Title V program receives sufficient funding to cover its expenses,
even if part of the funding is not from Title V fee revenues. New York State DEC’s use of non-
Title V revenue to pay for its Title V program essentially amounts to a subsidy from the state’s
General Fund to cover costs that are required by the CAA and Part 70 to be covered through fees
charged to Title V major stationary sources. Therefore, it appears that the New York State DEC



 15-P-0006
                                                                                                32
will continue to rely on using non-Title V funds to pay for a significant, and potentially growing,
portion of its Title V program.

 Louisiana DEQ

Louisiana DEQ used non-Title V revenue from its Environmental Trust Fund, characterized as
“Non-Title V Air Revenue,” to cover from $2.9 million to $4.1 million annually of its Title V
expenditures between 2008 and 2012. The non-Title V revenues were made up of permit
application fees and annual maintenance fees deposited into the permitting authority’s
Environmental Trust Fund that were not designated by Louisiana DEQ as Title V revenue.
According to Louisiana DEQ, these non-Title V fees may be used to fund Title V expenses. In
response to the draft report excerpts, Louisiana DEQ responded that Louisiana uses these fees to
meet its requirements of funding the program expenses. Louisiana DEQ further responded:

       The fees are from Title V facilities; however, those funding sources are not
       considered Title V revenue for reporting purposes since Louisiana uses its
       emission fees as its dedicated revenue source for Title V reporting purposes.

As noted in Chapter 2, the CAA requires that any fee required under Title V be used solely to
cover permit program costs.

EPA Region 6 conducted program reviews of Louisiana DEQ in 2002, 2007 through 2008, and
2011 through 2013. However, EPA Region 6 has only issued one final report, for the 2002
evaluation. Region 6 did not issue a final report for the 2007 evaluation. Instead, Region 6 sent a
draft report to the Louisiana DEQ in January 2014 for the evaluation it conducted in 2011
through 2013. In response to our October 2012 survey of regions, Region 6 responded that:

       Based upon EPA review and evaluation, EPA Region 6 identified a serious
       concern that the State is failing to collect, retain, or allocate fee revenue consistent
       with 40 C.F.R, Part 70 [in its 2002 evaluation]. We discussed the serious concern
       with the State. The LDEQ has committed to steps to address the concerns
       regarding collection, retention, and allocation of fee revenue system, the budget,
       and adequacy of fee.” In addition, the Region conducted a Title V evaluation in
       2007 thru 2008. Although that report was not finalized, Region 6 is building off
       the 2008 findings for the currently ongoing 2012 Audit. One of the serious
       concerns identified in 2008 was LDEQ’s failure to develop a separate and discrete
       budget specific to the Title V program to ensure there are adequate funds
       available to cover fully the Part 70 permitting program.

In the draft report that was provided to the OIG in January 2014, Region 6 recommended that the
Louisiana DEQ conduct a fee demonstration. According to the draft report:

       Through this review, we [Region 6] find that there are ongoing questions
       regarding whether the initial program approval fee demonstration with the
       numerous changes to the fees collected and allocated to the current Title V
       program accurately reflect and fully support the costs of the program. This

 15-P-0006
                                                                                                  33
       uncertainty, coupled with the continued negative divergence of the direct Title V
       fees collected versus the CPI adjusted presumptive minimum fee render a new fee
       demonstration in accordance with the requirements of 40 CFR §70.9(b)(5)(ii)
       both relevant and recommended as part of EPA’s oversight responsibility of the
       Title V program.

According to Region 6, a final report will be prepared once Region 6 obtains feedback from
Louisiana DEQ. That feedback is expected by the end of fiscal year 2014.

 Ohio EPA

Ohio EPA charges Title V fees based on the federal presumptive minimum fee level. However,
this fee structure, according to Ohio EPA personnel, is unlikely to remain adequate to support
Ohio’s Title V program. Ohio EPA’s 2012 Title V revenues were 11 percent less than 2008
revenues. This occurred despite annual fee increases.

The pressures that declining Title V revenues have placed on Ohio EPA to fund existing full-
time equivalent levels, or replace staff after leaving, has caused it to look for other sources of
revenue for its Title V program. One source cited by Ohio EPA is revenue from the state’s solid
waste tipping fees. These are fees charged per ton for disposal of solid waste at Ohio’s landfills.
The tipping fees are collected from any entity disposing waste in Ohio’s landfills. This includes
numerous non-Title V sources, as well as members of the public. However, EPA’s 1993
guidance for approval of state Title V fee schedules states that:
       Only funds collected from part 70 sources may be used to fund a State’s title V
       permits program. Legislative appropriations, other funding mechanisms such as
       vehicle license fees, and section 105 funds cannot be used to fund these activities.

According to Ohio EPA, revenues from solid waste tipping fees are used to supplement any of
Ohio EPA’s programs needing funds in a given year. The revenue from tipping fees has been
used to fund activities in the air program. The Ohio EPA’s Chief of the Division of Air Pollution
Control and the Division of Air Pollution Control’s Fiscal Officer told us that revenue from solid
waste tipping fees has not been used to supplement their Title V funding and has not been used
to directly fund Title V activities. However, they said that there are not any state limitations on
using tipping fees as a source of revenue to support their Title V program if needed and
available.

EPA Region 5 told us that Ohio EPA had expressed concerns that its presumptive minimum fee
has not been adjusted (other than annual CPI adjustments) since inception of the program.
Region 5 also raised concerns that Title V funding has been adversely impacted in Ohio as large
utilities have shut down in response to additional federal regulation.

In its response to the OIG’s survey, Region 5 stated that Ohio EPA had “…a number of funds to
support Title V activities (e.g., solid waste tipping fees) in the event that a shortfall occurs in any
given fiscal year,” but did not state that solid waste tipping fees were being used to fund the Ohio
EPA Title V program. We asked Region 5 in December 2013 whether it was aware of Ohio’s


 15-P-0006
                                                                                                    34
potential use of solid waste tipping fees to pay for Title V activities, and whether the region had
approved use of those fees as an allowed source of Title V revenue. The region responded by
stating that:
       Region 5 has no information indicating that Ohio is using Title V solid waste
       tipping fees to pay for Title V activities. We also have no information indicating
       changes to Ohio’s program fee structure.

According to Region 5 personnel, Ohio EPA’s use of solid waste tipping fees to pay for its
Title V program did not come up in the region’s most recent Title V program evaluation because
the evaluation did not address fees.




 15-P-0006
                                                                                                  35
                                                                                                                         Appendix D

               Revenue and Expense Trends Between 2008 and 2012
                        at Permitting Authorities Sampled

Figure D-1: Annual Title V Revenues and Expenses                      Figure D-2: Annual Title V Revenues and Expenses
            for Florida DEP (2008–2012)                                           for Illinois EPA (2008–2012)
 $10,000,000                                                         $20,000,000

   $8,000,000
                                                                     $15,000,000
   $6,000,000
                                                                     $10,000,000
   $4,000,000
                                                                      $5,000,000
   $2,000,000

            $0                                                                 $0
                    2008     2009      2010     2011      2012                         2008      2009     2010      2011      2012

                        Revenue           Expense                                          Revenue            Expense


Source: OIG analysis of Florida DEP response to OIG survey.           Source: OIG analysis of Illinois EPA response to OIG survey.




Figure D-3: Annual Title V Revenues and Expenses                      Figure D-4: Annual Title V Revenues and Expenses
            for Indiana DEM (2008–2012)                                           for Louisiana DEQ (2008–2012)
 $20,000,000
                                                                     $10,000,000

 $15,000,000                                                          $8,000,000

                                                                      $6,000,000
 $10,000,000
                                                                      $4,000,000
   $5,000,000
                                                                      $2,000,000

            $0                                                                  $0
                    2008     2009      2010      2011         2012                      2008      2009      2010     2011      2012

                        Revenue           Expense                                           Revenue            Expense
Source: OIG analysis of Indiana DEM response to OIG survey.           Source: OIG analysis of Louisiana DEQ response to OIG survey.




                 15-P-0006
                                                                                                                                      36
Figure D-5: Annual Title V Revenues and Expenses                     Figure D-6: Annual Title V Revenues and Expenses
            for New York State DEC (2008–2012)                                   for Ohio EPA (2008–2012)

  $20,000,000                                                         $20,000,000

  $15,000,000                                                         $15,000,000

  $10,000,000                                                         $10,000,000

   $5,000,000                                                          $5,000,000

             $0                                                                 $0
                    2008      2009      2010      2011     2012                         2008     2009     2010      2011     2012

                         Revenue           Expense                                         Revenue           Expense
Source: OIG analysis of New York State DEC response to OIG survey.    Source: OIG analysis of Ohio EPA response to OIG survey.




Figure D-7: Annual Title V Revenues and Expenses                     Figure D-8: Annual Title V Revenues and Expenses
            for Pennsylvania DEP (2008–2012)                                     for South Coast AQMD (2008–2012)

  $20,000,000                                                        $12,000,000
                                                                     $10,000,000
  $15,000,000
                                                                      $8,000,000

  $10,000,000                                                         $6,000,000
                                                                      $4,000,000
   $5,000,000
                                                                      $2,000,000
             $0                                                                $0
                    2008      2009     2010      2011     2012                        2008     2009      2010     2011     2012

                        Revenue           Expense                                         Revenue           Expense
Source: OIG analysis of Pennsylvania DEP response to OIG survey.     Source: OIG analysis of South Coast AQMD response to OIG survey.




                  15-P-0006
                                                                                                                                    37
Figure D-9: Annual Title V Revenues and Expenses
            for Texas CEQ (2008–2012)
  $40,000,000

  $30,000,000

  $20,000,000

  $10,000,000

             $0
                    2008      2009     2010      2011       2012

                         Revenue           Expense
Source: OIG analysis of Texas CEQ response to OIG survey.




                  15-P-0006
                                                                   38
                                                                                   Appendix E


                  Agency Response to Draft Report
                                        August 22, 2014
MEMORANDUM

SUBJECT:      Response to Office of Inspector General (OIG) Draft Report No. OPE-FY12-0009
              “Enhanced EPA Oversight Needed to Address Risks from Declining Clean Air
              Act Title V Revenues,” dated July 22, 2014

FROM:         Janet G. McCabe
              Acting Assistant Administrator

TO:           Carolyn Copper
              Assistant Inspector General
              Office of Inspector General

Thank you for the opportunity to review and comment on the Office of Inspector General’s
(OIG’s) draft report titled, “Enhanced EPA Oversight Needed to Address Risks from Declining
Clean Air Act Title V Revenues” (Project No. OPE-FY12-0009) (Draft Report). The OIG has
identified some issues regarding the EPA’s oversight of fee programs implemented by EPA-
approved operating permit programs and we respond to those in this memo. We also want to
emphasize, however, that EPA’s oversight has been successful in addressing fee program
concerns that have arisen over time. Moreover, fee oversight is only one aspect of the EPA’s
oversight of the complex state operating permit programs, which have been successful in issuing
over 15,000 operating permits, furthering the overarching goals of improving compliance with
air pollution requirements and public involvement in the permitting process.

Over the last two decades, the EPA has provided useful and relevant guidance to implementing
authorities and regions to ensure proper administration and oversight, respectively, of fee
programs for the operating permits programs. For example, the 1993 OAR guidance on operating
permit program fees addressed, among other things: the state legal authority necessary to
implement required program elements, including fee programs; the specific state permitting
activities that are required to be covered by permit fee revenue; the requirement that states
charge permit fees that are sufficient to fund the reasonable direct and indirect permit program
costs; the requirement that fees be used solely to cover permit program costs (which is
sometimes referred to as the ban on using non-title V funds to cover program costs); the option
for states to rely on the statutory presumptive minimum fee for purposes of determining adequate
funding levels; the flexibility available to states to charge permit fees to sources on different
bases, including for emissions-based fees, service-based fees and other types of fees; a program
evaluation (audit) checklist for the EPA regions to use when auditing state operating permit
programs, which included items related to fee program administration; the interplay between
state grants under the Clean Air Act (CAA) Section 105 and title V fees; and program accounting
guidance, including title V fund accounting using Generally Accepted Accounting Principles for

 15-P-0006
                                                                                              39
government, which addresses accounting fund structures, tracking direct and indirect costs, and
segregation of title V funds from other governmental funds.

The CAA and the EPA’s title V operating permit rules provide the framework and specific
authorities associated with the EPA’s oversight of title V permit programs. Through the OAR’s
National Program Guidance, the EPA regions, which implement key aspects of the EPA’s
oversight strategy, have committed to undertake one state permit program evaluation per year,
which often includes a fee assessment component. Due to the program evaluations and fee
assessments conducted so far, each region has historical knowledge of the adequacy of each
state’s fee revenues, its compliance with various requirements related to fee administration, and
of other permit program implementation issues that are unrelated to fees, such as whether the
state is timely issuing permits, the quality of the issued permits, and the state’s compliance and
enforcement program for permits. This knowledge informs regional decisions about when to
focus on fees or other issues related to performance as part of their reviews.

Below are the OAR’s responses to the OIG’s specific recommendations. As a general matter, the
EPA agrees that a guidance document that discusses the fee aspect of the oversight program
evaluation in additional detail would be useful. The EPA expects to develop such a guidance in
part through assessing the 1993 fee schedule guidance and by either updating that document or
issuing a separate fee oversight strategy document. This fee oversight strategy guidance is
expected to be responsive to the OIG’s recommendations below. Lastly, in the attachment, we
provide additional detailed comments. We appreciate the changes the OIG made in response to
our earlier comments. Several of our suggested clarifications or corrections were not addressed,
however, and we urge the OIG to consider those suggestions again, to ensure that the report is as
accurate and complete as possible.

Recommendation 1: “Assess whether the EPA’s 1993 fee schedule guidance sufficiently
addresses current program issues and requirements related to how Title V fees should be
collected, retained, allocated and used. Revise the fee guidance as necessary and re-issue to
EPA regions.”

Response 1: Although the 1993 fee schedule guidance, and several other existing fee guidances,
provide a useful framework for addressing state fee program issues, we agree to assess our
existing fee guidance and to re-issue, revise, or supplement such guidance, as necessary. This
effort may be completed independently or in conjunction with actions responsive to
recommendations below.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4

Recommendation 2: “Issue guidance requiring EPA regions to periodically obtain and
assess authorized state and local permitting authorities’ Title V program revenues,
expenses and accounting practices to ensure that permitting authorities collect sufficient
Title V revenues to cover Title V program costs.”

Response 2: As noted above, the OAR agrees that revised guidance would be helpful to guide
the EPA regional offices in performing fee assessments either as part of or separate from a title V


 15-P-0006
                                                                                                 40
program evaluation. The OAR intends to develop and issue a guidance document that sets forth a
fee oversight strategy. In developing this guidance document, the EPA will consider19 the scope
and frequency of fee assessments and their relationship to the National Program Guidance
element that currently provides for each region to conduct at least one title V program evaluation
each year.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4

Recommendation 3: “Establish a fee oversight strategy, including a hierarchy of actions
and related timeframes, to ensure that EPA regions take consistent and timely actions to
identify and address violations of 40 CFR Part 70 Title V fee revenues, expenses and
accounting practices.”

Response 3: We commit to working with the regions to develop a guidance document that
includes a fee oversight strategy including, for example, a fee review checklist that will provide a
framework for the EPA regions to use when performing fee assessments for state permit
programs. The CAA and the EPA’s implementing regulations already set forth the specific
hierarchy of actions, including certain aspects of that process that are discretionary on the part of
the EPA. Nonetheless, the EPA anticipates describing not only methods for performing a fee
assessment, but also methods for resolving fee issues that do arise.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4

Recommendation 4: “Ensure that EPA regions complete program evaluation reports of
authorized state and local permitting authorities within the fiscal year the evaluation was
conducted20, as called for by National Program Guidance, and require that EPA regions
publicly issue these program evaluation reports.”

Response 4: The OAR agrees that the program evaluation reports should be completed within a
reasonable period of time following the evaluation. However, since the evaluations are
sometimes completed at the end of the fiscal year, it is not reasonable to always expect that the
evaluation report is completed within the same fiscal year as the evaluation. The OAR commits
to working with the EPA regions to identify a reasonable timeframe in which to complete the
evaluation reports. In addition, the EPA will explore opportunities21 to provide for public posting
on the Internet of the evaluation documents.

Planned Completion Date: Fiscal Year (FY) 2016, Quarter (Q) 4


19
   In a subsequent communication, OAR agreed with substituting the word “address” for “consider” in the sentence
to confirm that “…the EPA will address the scope and frequency…”
20
   During the exit conference OIG accepted OAR’s commitment to require regions to complete their program
evaluation reports “within a reasonable timeframe” as meeting the intent of our recommendation, and amended the
text of Recommendation 4 accordingly.
21
   In a subsequent communication, OAR agreed to revise this sentence to confirm that “EPA will establish a method
for public posting on the Internet of the evaluation documents and include such posting as part of the fee oversight
strategy guidance we develop.”


     15-P-0006
                                                                                                                  41
Recommendation 5: “Require that EPA regions emphasize and include reviews of Title V
fee revenue and accounting practices in all Title V program evaluations.22”

Response 5: The OAR agrees that fee assessments should be performed periodically as part of
the EPA program oversight functions, and the EPA anticipates addressing23 that as part of the fee
oversight guidance document.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4

Recommendation 6: “Require that EPA regions address shortfalls in the financial or
accounting expertise among regional Title V program staff as the regions update their
workforce plans. This may include resource sharing and collaboration with other EPA
regions, or use of outside organizations, as appropriate.”
Response 6: The OAR agrees to develop and issue guidance describing a fee oversight strategy
to assist regional staff in conducting title V fee oversight. In addition, the EPA will work with
the regions to identify where and how financial and accounting expertise can be accessed when
needed.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4
Recommendation 7: “Require that EPA regions re-assess permitting authority fee
structures when revenue sufficiency issues are identified during program evaluations, and
require fee demonstrations as necessary.”

Response 7: The OAR expects to consider these elements24 as part of the development and
issuance of the fee oversight strategy guidance document described above.

Planned Completion Date: Fiscal Year (FY) 2017, Quarter (Q) 4

Recommendation 8: “Require that EPA regions take action on permitting authorities not in
compliance with 40 CFR Part 70 by finding them to be inadequately administered or
enforced, and issuing the required NODs.”

Response 8: The CAA and EPA’s implementing regulations set forth the specific hierarchy of
actions, including certain aspects of that process that are discretionary on the part of the EPA.
The EPA has enforcement discretion under the CAA, and, as identified in Appendix A to the
Draft Report, the EPA has successfully resolved numerous issues without actions that the OIG is
suggesting that the OAR require of the EPA regional offices. The EPA believes that its

22
   During the exit conference, we agreed that in lieu of requiring regions to include a review of Title V fee revenue
and accounting practices in “all” Title V program evaluations we would accept OAR’s commitment to require
regions to include a review of Title V fee revenue and accounting practices periodically at reasonable intervals in its
program evaluations.
23
   In a subsequent communication, OAR clarified its proposed corrective action plan to confirm that “… the EPA
will address that as part of the fee oversight (strategy guidance) …”
24
   In a subsequent communication, OAR clarified its response to Recommendation 7 to confirm that “The OAR will
address these elements as part of the development and issuance of the fee oversight strategy guidance document
described above.”


     15-P-0006
                                                                                                                     42
commitment to develop and issue a fee oversight strategy guidance will be an effective response
to these recommendations. The EPA regions have made findings of deficiencies related to fees in
the past (described herein) and the OAR believes the EPA regions will do so in the future, when
appropriate and necessary to ensure compliance with the CAA.

Planned Completion Date: N/A25

If you have any questions regarding this response, please contact Anna Marie Wood, Director,
Air Quality Policy Division in the Office of Air Quality Planning and Standards at (919) 541-
3604.

Attachment

cc:       Rick Beusse
          Jeff Herring
          Maureen Hingeley
          Mike Jones
          Mike Koerber
          Vera Kornylak
          Steve Page
          Juan Santiago
          Betsy Shaw
          Paul Versace
          Anna Marie Wood




25
  In a subsequent communication, OAR confirmed that its planned completion date for its corrective action for
Recommendation 8 is Fiscal Year (FY) 2017, Quarter (Q) 4.

     15-P-0006
                                                                                                                43
                                                                                      Appendix F

                                     Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Assistant Administrator for Air and Radiation
Director, Office of Air Quality Planning and Standards, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Air Quality Planning and Standards,
       Office of Air and Radiation
Regional Administrators, Regions 1–10
Audit Follow-Up Coordinators, Regions 1–10




 15-P-0006
                                                                                              44
